<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                        [H.A.S.C. No. 110-122]



                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE ARMY

                               __________

                              HEARING HELD

                           FEBRUARY 28, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                 U.S. GOVERNMENT PRINTING OFFICE
44-097                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Andrew Hunter, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, February 28, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Army...........................................................     1

Appendix:

Thursday, February 28, 2008......................................    47
                              ----------                              

                      THURSDAY, FEBRUARY 28, 2008
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Casey, Gen. George W., Jr., USA, Chief of Staff, U.S. Army.......     9
Geren, Hon. Pete, Secretary of the Army..........................     5

                                APPENDIX

Prepared Statements:

    Geren, Hon. Pete, joint with Gen. George W. Casey, Jr........    51

Documents Submitted for the Record:
    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Abercrombie..............................................    79
    Mrs. Boyda...................................................    81
    Mr. Hayes....................................................    79
    Mr. Miller...................................................    80
    Ms. Tsongas..................................................    81
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE ARMY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 28, 2008.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Welcome to today's hearing, which is the Army 
posture hearing. We welcome our witnesses today.
    I might announce that on occasion we begin the questioning 
in reverse order. And unless there is an objection, I will say 
that the questioners will begin in the low seniority coming 
back to the high on the 12th of next month.
    So we welcome the witnesses today, Secretary Pete Geren, 
the 20th secretary of the Department of the Army, and what is 
even more impressive, former member of our committee; General 
George Casey, chief of staff of the United States Army. And we 
thank you for coming and for your extraordinary service. We are 
proud of both of you.
    Most of all, thank you to the valiant and dedicated 
soldiers and civilians that you represent. They have the deep 
gratitude of our nation as well as this committee.
    Today's hearing is arguably the most important we will hold 
this year. We are a nation at war. The Army is faced with an 
avalanche of demands for ground forces, demands from multiple 
armed conflicts, from security commitments made to defend our 
allies and overseas interests, from a requirement to deter 
potential enemies around the world, and from a mandate to 
defend the homeland. Collectively this list of missions 
constitutes the national military strategy.
    Today, the Army, along with the rest of the Department of 
Defense, is at risk of not being able to answer the demands of 
that strategy without suffering losses that this nation has 
previously deemed unacceptable. General Casey has described the 
Army as being out of balance. I would add that we appear to be 
out of balance and walking on a tightrope. The consequences of 
falling are unpredictable, but likely grave, and certainly are 
a gamble we can ill afford.
    Normally we would judge the Army budget on two standards. 
First, does it provide sufficient resources for this year's 
operations? Second, does it support the long-term health of the 
Army?
    The bad news is that the budget does not fully fund the 
Army's operations during 2009 and is short in excess of $100 
billion. The Secretary of Defense has pledged to send us a full 
budget request within a few months, which may or may not arrive 
in time to be considered as part of this regular budget. So on 
question one, the grade is incomplete.
    Congress also has responsibilities that are incomplete. We 
have authorized but not yet appropriated money to fully fund 
Army operations in 2008. However, I am confident that Congress 
will do so in the very near future.
    So let us consider whether the budget properly addresses 
the future health and readiness of the Army. Readiness is 
defined as the ability to execute the national military 
strategy. Readiness today is not good, and it is a particular 
challenge for the Army.
    The requirement to man, train, and equip brigades for Iraq 
is consuming the Army's personnel, materiel, and budget 
resources. Other missions required by the national military 
strategy have taken a back seat. The Army is certainly capable. 
In many ways, today's Army is the most capable we have ever 
had, with battle-hardened soldiers and experienced leaders, new 
technology, and evolving and increasingly effective doctrine 
for the counter-insurgency fight.
    In other equally important ways, however, the Army's 
capability is not where it was even 5 years ago. The Army is 
clearly under-prepared for missions that were once seen as 
central to the mission, and it lacks the robust reserve 
capacity that has been our traditional hedge against 
uncertainty.
    General Casey in his statement describes the current time 
as one of persistent conflict. In my 31 years in Congress, we 
have been involved in 12 significant military conflicts, none 
of which was predicted beforehand. A hedge against uncertainty 
is not a luxury, it is a necessity.
    So I turn now to the fiscal year 2009 budget, which does 
include some encouraging steps in the right direction. You 
continue to grow the Army, a step I have encouraged for 13 
years.
    We understand that the Army is also likely to accelerate 
this process when the rest of the budget arrives. This step 
will go a long ways toward returning depth and flexibility to 
the force. You have increased funding for training, both tank 
miles and flying hours, though still short of the requirement.
    At the same time, this schedule for replenishing Army 
prepositioned stocks has slipped 2 years, and the schedule for 
completing the conversion of the Army to modular brigade combat 
teams has slipped even longer. These schedule delays are a 
cause of concern.
    The Congress and the department have been working to fill 
what General Schoomaker used to refer to as the holes in the 
yard, but they appear to be getting deeper instead. The 
Congress has authorized and appropriated more than $67 billion 
for equipment reset since 2002, and yet the Army's shortages of 
equipment have progressively worsened over the last several 
years. Today we must understand what it takes to reverse this 
trend.
    Last, let me say a few words about roles and missions. The 
Army and our nation learned a hard lesson in Iraq. The enemy 
that we crushed on the traditional battlefield found new 
asymmetrical ways to attack us for which we were not well 
prepared. Future enemies will do the same, and their strategies 
will be even more varied.
    We must prepare now for those fights by clarifying the 
roles and missions of the armed forces in emerging areas of 
warfare such as cyber warfare. Congress mandated in law that 
the Department review roles and missions. And we are very, very 
serious about this review.
    Critics have argued that the Army, Navy, Air Force, Marines 
will simply use this process to advance narrow agendas and 
bicker over budgets and systems. Our direction from this 
committee and this Congress to you is to prove them wrong and 
instead take a clear-eyed and creative approach to clarifying 
roles and missions for future warfare. I know that you will do 
it right.
    I now turn to my friend the Ranking Member, the gentleman 
from California, Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman. And thanks for holding 
this very critical hearing.
    And to our great friend, Pete Geren, Secretary Geren, great 
to have you back. And as a former member of the committee, 
wonderful to see you in your continuing leadership role in this 
very, very critical position.
    Secretary Geren. It looks different from down here, I am 
sure, Congressman.
    Mr. Hunter. And, General Casey, thank you, sir, for all 
your great service to our country.
    Gentlemen, this is a critical time in our history. And it 
is a critical time particularly for the Army because I think we 
have got a couple of things to prove. One thing is that we have 
got the agility to field systems that are needed on the 
battlefield and at the same time, be able to respond to what I 
call the horizon.
    That is to look to challenges and conflicts that are not 
immediately manifest in Afghanistan and Iraq, but are 
nonetheless going to be with us shortly and to be able to 
prepare for that horizon by making the right changes in the 
Army today.
    Before I briefly lay out my own concerns about the Fiscal 
Year 2009 Budget Request, I would like to just briefly comment 
on the Army's current readiness, which I think is of concern to 
all members of the committee. It is very clear that the war 
that we are fighting is wearing on the Army and on our forces.
    However, I think we have to ask are we supposed to only 
fight the wars that improve military readiness. And by 
definition the only way to make sure that your bandoleer of 
ammunition remains full up is never to take a round out and 
fire it. Because once you do that, by definition you are taking 
down the readiness count and the readiness capability.
    Nobody will argue that the readiness of our military is 
absolutely crucial to the national security strategy. However, 
should declining readiness trends spur us to throw up our hands 
and give up, or should these trends be a warning to all of us 
and compel us to identify, fund, and fix the shortfalls?
    Not too long ago you were both in front of the committee 
talking about the Army's strategic initiatives. And both of you 
expressed concerns about the Army being out of balance. You 
stated that balance is a state of continual readiness that 
provides strategic flexibility and depth while sustaining the 
all-volunteer force and simultaneously meeting the current and 
future demands of the national security strategy in an era of 
persistent conflict.
    So I would like to take the opportunity to thank you for 
that testimony and to say I agree with you. In fact, I believe 
that not only is the Army out of balance, but the entire 
Department of Defense is out of balance.
    What leads me to my first concern about this budget 
request, the President's Fiscal Year 2009 Base Budget request 
for the Department of Defense amounts to $515.4 billion, which 
is $36 billion more than last year's enacted base 
appropriation. Specifically for the Army, the President's 
Fiscal Year 2009 Budget Request is $140.7 billion, an $11.8 
billion increase over the fiscal year 2008 enacted level.
    However, I am disappointed that while seemingly robust, the 
top line request does not meet a minimal threshold of four 
percent of gross domestic product, a threshold that several 
defense and military experts insist is required to meet future 
and current needs of our military. In fact, Admiral Mullen, 
Chairman of the Joint Chiefs of Staff in recent public 
statements has been generally supportive of that approach.
    So I would like to ask both of our witnesses to explain 
what types of security risks the Administration is implicitly 
accepting as a result. Our servicemembers who bravely defend 
the American people--for national security interest deserve all 
the materiel and moral support that we can provide.
    We can't afford to continue to separate investments in the 
Army from the current conversation about the state of the 
military's readiness. I believe that investments in future 
capabilities and the readiness of the current force are 
interdependent.
    Finally, I would like to bring up an issue that I brought 
up at last year's posture hearing regarding the funding for the 
National Guard and Reserve. I note that in 2000, the National 
Guard received approximately $600 million in procurement 
funding and that today they are getting approximately $5 
billion to $7 billion in procurement funding, roughly 10 times 
as much.
    So things are getting better, but it is still going to take 
a long time to get it exactly right. So my issue is that we 
need to get a handle on all the light, medium, and heavy 
tactical wheeled vehicles that the Army has in its inventory. 
National Guard units don't need armored Humvees or armored 
trucks to accomplish their homeland security missions.
    So let us find out where all the unarmored wheeled vehicles 
are, bounce that against Guard requirements, and help the Guard 
and Reserve. And, gentlemen, that has been an issue that we 
have talked about at some length.
    And I know, General Casey, you have been trying to make 
sure we get a good response in the committee on that. But my 
instincts are that there is lots and lots of inventory over 
there that has been brought over by Guard units, left in-
country, and as we have up-armored and we have upgraded the 
armor capability on vehicles and brought in new types of 
vehicles and we have substituted out, we should have some 
fairly large inventories of platforms right now in the Iraq 
theater. And I think that is something that we don't have a 
good handle on.
    We need to have that. If we have got vehicles that are--for 
example, the 1800 MAC-kitted marine vehicles that we found, I 
believe, at Takatum that were parked there when they 
substituted out for the up-armored 114s. If we find large 
inventories of vehicles that are available, I think we ought to 
bring those back on these dead end RoRo hauls coming back to 
the states.
    Let us match them up with Guard units that need those 
vehicles right now and see how many of them we can bring up to 
a fairly high state of equipment readiness before we see those 
things being sold off in foreign military sales for pennies on 
the dollar. So I think that is an important endeavor that we 
should embark on right now to make sure that we use all of the 
investment that we have put into the Army modernization.
    So I know you are working, General, on getting that 
information to us. I hope we can get that fairly shortly.
    So again, thank you, gentlemen. You have got a major 
challenge, this challenge of trying to balance the war-fighting 
theaters and the Army's role in those theaters against the 
challenges that are on the horizon. And they are many. And so, 
I look forward to your testimony.
    Mr. Chairman, thank you for holding this hearing.
    The Chairman. Thank you.
    We now call on our former colleague and our friend, 
Secretary of the Army, Secretary Geren.

      STATEMENT OF HON. PETE GEREN, SECRETARY OF THE ARMY

    Secretary Geren. Thank you, Mr. Chairman.
    And thanks, Congressman Hunter.
    And thank all members of the committee for giving General 
Casey and me the opportunity to appear before you to talk about 
our nation's Army, an Army that has been built by partnership 
between the Army and this Congress. It is a partnership that is 
older than our nation.
    It was affirmed in our Constitution. And you remind every 
witness that comes before with Article 1, Section 8 right here 
in front of us in case we ever forget. But thank you for that 
partnership.
    Mr. Chairman, before I begin my statement, I would like to 
recognize there are four members of this committee, it is their 
last Army posture statement. Ranking Member Hunter, Jim Saxton, 
Terry Everett, and Congressman Udall this will be their last 
Army posture statement. I did a little arithmetic.
    Seventy-eight years of service on this committee. And 78 
years of great support for the United States Army. So I want to 
thank you all for your service.
    Mr. Hunter. And, Mr. Geren, you have got another fine 
gentleman to thank, too. The gentleman to my left here, Mr. 
Saxton--did you get--I am sorry.
    Secretary Geren. I believe I mentioned Congressman Saxton.
    Mr. Hunter. Okay.
    Secretary Geren. Congressman Saxton. I did. Mr. Everett 
isn't here, but I wanted to acknowledge him as well. But you 
all have put in a lot of time in those chairs and want to thank 
you for all you have done for the Army.
    Mr. Chairman, the President's budget for 2009 is before the 
Congress, $141 billion for the Army. As is always the case, the 
Army's budget is mostly about people and operations and 
maintenance to support people. Our personnel budget, our O&M 
budget make up a full two-thirds of that $141 billion. And as 
Craton Abrams reminded us often, people are not in the Army, 
people are the Army. And this budget reflects that reality.
    Today we are an Army long at war. We are on our seventh 
year in Afghanistan. And next month we will be five years in 
Iraq.
    This is the third longest war in American history behind 
the Revolutionary War and the Vietnam War. It is the longest 
war we have ever fought with an all-volunteer force.
    And our Army is stretched by the demands of this long war, 
but it remains an extraordinary Army. It is the best led and 
best-trained and best equipped Army we have ever put in the 
field. But Army families stand with their soldiers as those 
soldiers serve and as those soldiers reenlist. Our Army is an 
Army of volunteers, volunteer soldiers, and volunteer families.
    We currently have 250,000 soldiers deployed somewhere 
around the world in 80 countries. And we have over 140,000 
soldiers in Iraq and Afghanistan. Our 140,000 in harm's way are 
our top priority. We will never take our eye off that ball. And 
this budget and the supplementals and your support make sure 
that we give those soldiers what they need and when they need 
it.
    And today and over the last 6 years our Reserve component, 
Guard and Reserves continue to carry a very heavy load for our 
nation. Since 9/11 we have activated 184,000 reservists and 
268,000 National Guardsmen in support of the global war on 
terror.
    And not only have they stood up for us overseas, as we all 
know so well, they have answered crises on the home front, 
whether it was Katrina or Rita or forest fires or brush fires. 
They have been there. And we have asked a great deal of them 
over this last decade.
    And we are one Army. The active component cannot go to war 
without the Guard and Reserve. And the challenge before us is 
to continue the transformation of the Reserve component to an 
operational Reserve, match the organizing, training, and 
equipping with the reality of what we are asking of our Guard 
and reservists.
    This budget continues the steady investment in new 
equipment in our Reserve component. And although we will not 
complete the recapitalization in this program objective 
memorandum (POM), it is important to recognize, as Congressman 
Hunter did in his statement, we are not where we were, either. 
We have made progress.
    Just looking at a few pacer items. In the Guard in 2001, 
there were 290 family of medium tactical vehicles (FMTV) 
trucks. Today there are over 9,000. Single-Channel Ground-Air 
Radio System (SINGAR) radios--there were 41,000 in 2001. Today 
there are over 82,000. M4 rifles--2001, less than 6,000. Today, 
over 120,000.
    We are not where we need to be, but we have made progress. 
And this budget includes $5.6 billion for Guard equipping and 
$1.4 billion for the Reserve. And over the next 24 months, $17 
billion worth of new equipment will flow into the Guard. The 
last several years of investment it takes a while to work it 
through the system.
    But over the next 24 months, $17 billion worth of equipment 
and 400,000 pieces of equipment are bought with that. In the 
meantime, state compacts and active duty support ensure that 
our governors have the resources they need to respond to 
domestic crises.
    And the strength of our Army, active, Guard, and Reserve 
comes from the strength of their families. And our Army 
families are standing tall with their soldier loved ones. But 
this long war is taking a heavy toll. We owe our families a 
quality of life that equals the quality of their service.
    Today over half of our soldiers are married. Yesterday 
Senator Inouye reminded us that when he was in the Army, 4 
percent of the soldiers he served with were married. Ninety-six 
percent were single. This is a major change in the Army of 
today.
    And nearly half of the soldiers who deploy today have 
children under 2 years of age. When a married soldier deploys, 
he or she leaves behind a single-parent household and all the 
challenges of that family dynamic. And when a single parent 
deploys, he or she leaves behind a child in the care of others.
    In the 2009 budget, we are doubling funding for family 
programs, adding 26 new child development centers to the 35 
that Congress funded for us last year. And over the past year 
with your strong support we have expanded the availability of 
and reduced the cost of childcare for all of our Army families.
    We have asked much of the volunteer spouses who carry the 
burden of family support programs, a burden that has grown 
heavier with every year of this war. And they need help.
    Our 2008 and this 2009 budget provides much-needed support. 
We are hiring over 1,000 family readiness support assistants 
and nearly 500 additional Army community service staff to 
provide help to those hard-working spouses.
    To meet the needs of geographically displaced families, a 
great challenge for our Guardsmen and Reservists, we are 
fielding the Army integrated family support network, which is 
an Internet portal to bring together many services in one spot 
so we can help meet the needs of those soldiers and their 
families. And the yellow ribbon program that you authorized 
last year will provide much-needed support to our Reserve 
component.
    In the 1990's, the Congress launched the privatized housing 
initiative for the military. And that initiative has been a 
great success and has made a huge difference in the lives of 
our families. That initiative replaced Army housing with homes 
and neighborhoods and vibrant communities. And this budget 
builds on that great success.
    And for single soldiers we are modernizing existing 
barracks and completing new ones. Today 75 percent of our 
barracks meet the one plus one standard. And with your support, 
over the 2009 to 2015 period, we will reach our target of 
150,000 soldiers in modernized barracks.
    The budget continues the programs that the Congress and the 
Army have developed together in meeting the needs of our 
wounded, ill, and injured soldiers. In your 2008 authorization 
bill, you gave us additional authorities to help meet the needs 
of those soldiers. And we thank you for that. And we are 
implementing those new initiatives. And it has made a 
difference.
    We have stood up 35 warrior transition units across the 
country to help wounded, ill, and injured soldiers. And each 
one of those soldiers today is supported by a triad of care, a 
platoon leader, a nurse case manager, and a primary care 
physician assigned to every single one of those soldiers. And 
this budget continues to advance those initiatives, continues 
to address personnel shortages, improve facilities, and work to 
accomplish the seamless transition from the Department of 
Defense (DOD) to Veterans Affairs (V.A.) for our soldiers.
    In 2008 and 2009, we will continue to transform Army 
contracting, pushing ahead with the reforms offered by the 
Gansler commission and our task force. And in this budget we do 
look to the future. We never want to send our soldiers into a 
fair fight.
    This budget continues our investment in the programs of 
tomorrow, our highest modernization priority, future combat 
systems, which not only will shape the future of our Army, but 
it is spinning out technologies that help in today's fight.
    The armed reconnaissance helicopter, unmanned aerial 
vehicles (UAVs), and the light utility helicopter, and joint 
cargo aircraft are part of that future. And we thank you for 
your support of that.
    We are the best equipped Army in the world today. And with 
your support, we will be able to say that 10 years from now.
    And this budget makes a major step forward ensuring the 
long-term strength and health of our Army by moving the cost of 
43,000 of our new end strength into the budget, out of the 
supplemental into this budget, $15 billion. And we have 
accelerated the 64,000 growth in the active duty from 2012 to 
2010.
    We are a nation long at war facing an era of persistent 
conflict. And we are consuming our readiness as fast as we 
build it. But our Army remains strong. It is stretched. It is 
out of balance, but it remains strong.
    And those who seek parallels with the hollow Army of the 
late 1970's will not find it in this Army. One hundred and 
twenty thousand soldiers proudly reenlist every year. One 
hundred and seventy thousand join our Army every year. They are 
proud of what they do, and they are proud of who they are.
    Mr. Chairman, members of this committee, thank you for your 
support of our Army. Thank you for being partners in building 
this Army. And let me also thank all of you personally for 
traveling around the world and meeting with soldiers, whether 
here at home or places all over the globe. You all spend your 
holidays with them. That means a great deal to them.
    The morale is strong, and you are a great contributor to 
that strong morale by being out there on the front lines with 
those soldiers. I know how hard it is to work that into the 
demands of your schedule, but thank you for doing that, and 
thank you for being partners in building the great Army we 
have. Thank you, Mr. Chairman.
    [The joint prepared statement of Secretary Geren and 
General Casey can be found in the Appendix on page 51.]
    The Chairman. Mr. Secretary, we thank you for your 
testimony and for your examination of where the Army is today.
    General Casey, please.

 STATEMENT OF GEN. GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
                           U.S. ARMY

    General Casey. Thank you very much, Chairman, Congressman 
Hunter, members of the committee. Not much has changed since 
the Secretary and I were here in September, but I would like to 
reemphasize some of the themes that we talked about then, but 
this time do it in the context of the fiscal year 2009 budget 
that we are presenting today.
    Our country, as has been said, is in our 7th year of war. 
And your Army remains fully engaged on the front lines, both 
abroad and at home. I testified in September that I believed 
the next decades would be ones of persistent conflict. And I 
defined that as a period of protracted confrontation among 
state, non-state, and individual actors who are increasingly 
willing to use violence to accomplish their strategic or their 
political and ideological objectives.
    I also described some global trends that I see going in the 
wrong direction that I believe will exacerbate and prolong this 
period of persistent conflict: the double-edged swords of 
technology and globalization, doubling of populations in 
developing countries, terrorist organizations seeking weapons 
of mass destruction, terrorist safe havens in ungoverned 
spaces.
    I said that because of that, our Army must be versatile 
enough to adapt rapidly to the unexpected circumstances we will 
surely face. And your 12 instances, Mr. Chairman, are exactly 
what we must be prepared for. And we have been building that 
agile, campaign-quality expeditionary force that we believe the 
Nation needs for this future.
    I also said that the cumulative effects of the six plus 
years at war have left our Army out of balance, consumed by the 
current fight and unable to do the things we know we do to 
sustain the all-volunteer force and to build strategic 
flexibility for other things. I wrestled hard to find the right 
words to describe the Army, because, as has been said several 
times already, it is not broken, it is not hollow. I lived 
through hollow in the early 1970's.
    It is a very resilient, competent, professional, and 
combat-seasoned force, as you said. But as we all recognize, we 
are not where we need to be.
    I have said that we have a plan to help restore that 
balance. And with your help, we believe that there are four 
imperatives that we must accomplish here in the next several 
years: sustain, prepare, reset, and transform. And let me just 
say a few words about each of those.
    First and foremost, we must sustain our soldiers, families, 
and civilians. They are the heart and soul of this Army and 
must be sustained in a way that recognizes the quality of their 
service. The Secretary mentioned several initiatives here, and 
they will continue, with your support.
    Second, prepare--we need to continue to prepare our 
soldiers for success in the current conflict. And we cannot 
flinch from our obligations to ensure that they are properly 
organized, trained, and equipped to have a decisive advantage 
over any enemy that they face.
    Third, reset--reset is about returning our soldiers and 
their equipment to appropriate condition for future deployments 
and contingencies. In fiscal year 2007, you gave us resources 
to properly reset the force. And as a result, we made 
significant strides in restoring systems and capabilities. 
Resources for reset, I believe, are the difference between a 
hollow force and a versatile, flexible force for the future.
    Last, transformed--and, Mr. Chairman, even as we work to 
put this Army in balance, we must continue to transform to give 
it the capabilities it needs in the 21st century. For us 
transformation is a holistic effort. We want to adapt how we 
train, how we fight, how we modernize, how we sustain our 
soldiers, families, and civilians, and how we station our 
forces.
    When I was here in September, I showed you some of the 
equipment that is part of our future combat system. Future 
combat system is the core of our modernization efforts. And it 
will provide us the full spectrum capabilities we know we need 
for the 21st century security environment.
    We are seeing the value of some of the systems today in 
Iraq and Afghanistan and at Fort Bliss, Texas where a brigade 
of our soldiers is actually testing some of those systems. At 
its peak, future combat systems amounts to a third of our 
investment accounts, which I think, as you know, represent 
about a quarter of our overall budget. So a third of a quarter. 
And we believe that the future combat system is both essential 
and affordable.
    Now, Mr. Chairman, as you have said many times, the 
intellectual has to proceed the physical. And later this week 
we will be releasing a new version of our operations manual. 
This is field manual three, operations. And it describes the 
future security environment and prescribes a framework for Army 
forces to be successful in that environment.
    Let me just talk about five significant elements that you 
will find in this manual. First of all, it describes the 
complex, multi-dimensional security environment of the 21st 
century where we believe war will be increasingly fought among 
the people.
    Second and probably most importantly, it elevates stability 
operations to the level of offense, defense and prescribes an 
operational concept called full spectrum operations where Army 
forces simultaneously apply offense and defense and stability 
operations to seize the initiative and achieve decisive 
results.
    Third, it emphasizes the commander's role in battle command 
and describes an intellectual process for developing solutions 
to the very complex challenges and problems we will face in the 
future.
    Fourth, it emphasizes the importance of information 
superiority in modern conflict.
    And last, it recognizes that our soldiers remain the 
centerpiece of our Army.
    We believe this doctrine will provide us a great start 
point from which to build on our experience of the past 7 years 
and shape our Army for the future. So that is our plan, 
Chairman: sustain, prepare, reset, and transform.
    And over the last two years, you have given us the funding 
to begin the process of putting the Army back in balance. This 
budget, the war on terror supplemental that will accompany it, 
and the balance of the 2008 war on terror supplemental will 
allow us to continue the process of putting the Army back in 
balance.
    We appreciate your support, and we have worked very hard to 
put the resources that you have given us to good use. And I 
would just like to highlight a few.
    First, we have made great strides through our Army medical 
action plan in improving our care to wounded soldiers. And we 
are absolutely committed to continuing to improve that.
    Second, we have initiated an Army soldier and family action 
plan to improve the quality of support to our soldiers and 
families.
    Third, we are over 60 percent of the way through our 
transition to modular organizations. And this is the largest 
organizational transformation of the Army since World War II. 
And I have seen the power of these units in Iraq. And they are 
the types of formations we need in the 21st century.
    We are also over 60 percent through our reconversion of 
120,000 soldiers to skill sets from Cold War skill sets to ones 
that are more relevant in the 21st century. We have reset with 
your support over 123,000 pieces of equipment. We have 
privatized over 4,000 homes just in the last year, bringing the 
total to 80,000, which is a significant enhancement to the 
quality of life to our soldiers and families. And your depots 
of the Army Materiel Command have won 12 industry awards for 
efficiency.
    So, Mr. Chairman, as you can see, we are not sitting still, 
and we are actively working to put ourselves back in balance 
and to give the Nation the Army that it needs in the 21st 
century.
    Now, let me just close, Mr. Chairman, by relating an 
experience I had right before Christmas. I went up to Alaska, 
and I was asked to pin a distinguished service cross on a young 
sergeant, Sergeant Greg Williams. He was on a patrol in Baghdad 
in October 2006.
    His patrol was ambushed from three different directions, 
and the ambush was initiated by an attack by four explosively 
formed penetrators. And I think you know those are the very 
lethal, anti-armor improvised explosive devices.
    He was knocked out. He awoke to find himself on fire, to 
find his vehicle on fire. His eardrum was burst. He put himself 
out. His first instinct was to grab the aid bag and begin 
treating his soldiers under fire.
    He recognized the lieutenant was still back on the track. 
He went back on the burning vehicle, dragged the lieutenant to 
safety and continued to place fire on the enemy.
    Recognizing that no one was manning the 50-caliber machine 
gun on the striker, he went again back into the burning 
vehicle, which contained over 30 pounds of TNT and detonating 
cord. He got on the 50-caliber, brought the 50-caliber to bear 
on the enemy and broke the ambush. That is the kind of men and 
women that we have in the armed forces today. You can be 
rightfully proud of what they are doing for this country.
    But it will require more than the courage and valor of our 
soldiers to ensure our Army can continue to fight and win the 
nation's wars in an era of persistent conflict. It will require 
recognition of national leaders like yourselves of the threats 
and challenges that America faces in the years ahead. And it 
will also require full, timely, and predictable funding to 
ensure that our armed forces are prepared to deal with those 
threats and can preserve our way of life.
    So, Mr. Chairman, members of the committee, thank you very 
much for your attention.
    The Chairman. General, thank you for your testimony and for 
your many years of service in uniform. After examining your 
testimony and listening to you today as well as having the 
advantage of other briefings and hearings, I think we are led 
to several conclusions.
    The first is that the Army is too small. The second is that 
the Army must significantly change its organization doctrine to 
fight today's and tomorrow's wars. Third, the Army lacks a 
strategic reserve to fall back on. And fourth, the soldiers in 
the Army are operating under tremendous, tremendous strain as a 
result of all these conclusions.
    And these issues are basically the same as we have had for 
the last three years. And I don't see them getting any better. 
Would you address us as to how this budget, this new budget 
that you recommend will solve the problems of the size of the 
Army, the organization and doctrine, the lack of strategic 
reserve, and the unbearable strain that the soldiers are 
feeling?
    Mr. Secretary, you are first.
    Secretary Geren. All right. Mr. Chairman, this doesn't 
solve all those problems, but it moves us in the right 
direction. The Army is too small. And we are, with this budget 
and with the supplemental, we are increasing the rate at which 
we are growing the Army.
    We are moving the increase in end strength, the 74,000 
increase in end strength, which is active, Guard, and Reserve, 
for the active and the Guard, we are moving that from--excuse 
me, active and Reserve, we are moving that from 2012 to 2010. 
So we are growing the Army.
    And we are too small for the commitments that we have. And 
we recognize that. And that impacts the Army in so many ways. 
The demand that we have from theater right now--in order to 
meet that demand, we have this 12-month dwell time, which is 
not enough time for the soldier to get home and get recharged, 
but it is not enough to train for full spectrum readiness.
    And as we grow the Army, as the demand from theater is 
reduced, we will see that dwell time increase. And that will 
help us improve the readiness of the Army because we will be 
able to train across the full spectrum once we are able to keep 
the soldiers home long enough.
    No strategic Reserve--over the last several years, we have 
worked to try to transform the Reserve component from a 
strategic Reserve to an operational Reserve. And that 
transformation is well underway. It has got years to go, but we 
have continued to invest in the organizing, training, and 
equipping of the Reserve component so that we can expand their 
capabilities. And big changes in that regard, not only in 
numbers of pieces of equipment that are in the Reserve 
component, but the type of equipment.
    They are getting the same type of equipment that the active 
component gets. They are not getting hand-me-downs. They are 
not getting old stuff. They are getting new stuff, new 
helicopters, new airplanes, trucks. And so, that is expanding 
their capability.
    And all three services, all three components are 
transforming. The Reserves are only getting 1,000 new soldiers. 
But through their transformation they are going to move 17,000 
soldiers into their operating force through transformation, 
moving folks into high-demand Military Occupational Specialties 
(MOS). All three components are doing that as well.
    Operating under tremendous strain? Absolutely. This budget 
helps in a number of ways. One is address the strain on the 
families by doubling the investment we are making in family 
programs from $700 to $1.4 billion and a wide range of 
initiatives to try to help families, both to help communities 
help the families, but help spouses, help children. And so, 
those are several initiatives that I think help us move in the 
direction we want to go.
    We are not where we want to be. We are in the midst of a 
war. And we are always going to be straining to meet the needs 
of the present and build for the future at the same time. But I 
believe this budget--and I think the budget of the future years 
defense plan that we will submit later this summer will show 
greater progress. But not where we need to be, but we are 
moving in the right direction.
    The Chairman. So far, before I call on General Casey, 
Secretary Geren, you used the phrase ``until demand in the 
theater is reduced''. Do you know something we don't about the 
demand in theater, which I assume would be in the Middle East?
    Secretary Geren. Sir, I don't know anything that you don't 
know. And General Petraeus will be here in April and help us 
have a better sense of what the future holds. But our job, as 
you know, we are the force provider. And we can't control what 
goes on in the theater. And we work with the combatant 
commanders to meet their needs.
    But right now with the force that we have and with the 
demand in theater, we have been forced into this 12-month to 
15-month ratio. And this dwell time does not give us adequate 
time to reset our Army, to train for the full spectrum of 
operations. And as we are able to expand that dwell time, we 
will be able to address some of these readiness challenges that 
we have today.
    The Chairman. General Casey, would you answer my first 
question?
    General Casey. I will, Chairman. And I mentioned in my 
opening statement that this budget and the accompanying 
supplementals will allow us to continue the process of putting 
the Army back in balance. And I prefer to think about it by the 
four imperatives.
    In this budget, as the secretary mentioned, is money for 
soldiers and families. There are money for recruiting 
incentives, which we need to grow the force. And as the 
secretary mentioned and I mentioned, the quality of the 
soldiers is a key element that we want to sustain as we go 
forward.
    Prepare--in this budget, as you mentioned, are increased op 
tempo and flying hour miles so that we can begin training 
returning soldiers for the full spectrum of operations. And we 
should expect to see that in fiscal year 2009. It also contains 
about $20 billion to fill some of those equipment holes that 
you mentioned earlier in your statement.
    Transform--probably the biggest element of this budget is 
the $15.5 billion that has been put in here for the growth of 
the Army. And we are increasing the end strength 43,000 in this 
budget for the active force and I think 1,400 for the Guard. 
And so, you are seeing things that were paid for in 
supplemental funding now moving into the base budget, which I 
believe is a good thing.
    You will also see money in here for the future combat 
system, $3.6 billion, about 3 percent of our budget, but 
essential, an essential investment in the future. There is also 
a total of about $11 billion in here for Army family housing 
and military construction and base realignment and closure 
construction to base that increase in the force.
    And there is also, most importantly, $1 billion in here for 
leader training. And you mentioned the intellectual piece of 
this, the doctrine. And I believe this doctrine, as I said, is 
going to help us shape our way to the future.
    I think we have a good direction to put us back in balance, 
Congressman. And I think with your help we can continue to make 
progress.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, a year and-a-half ago, having looked at the QDR 
and looking at the recommendations that they made, we 
determined on the committee to do our own committee defense 
review not constrained by what we thought we were going to get 
in terms of resources, but derived rather from what we thought 
were the requirements for all the services, including the Army.
    The Quadrennial Defense Review (QDR) recommended 70 brigade 
combat teams. We did our own set of hearings, analyses, 
briefings with our excellent members on this committee, and we 
produced a committee defense review that recommended 78 brigade 
combat teams.
    As I understand now, the Army's position has adjusted from 
the QDR. It has come up from 70 to 76. My first question is 
that in your personal opinion, with the QDR saying 70, the 
committee defense review saying 78, you are now at 76, do you 
think that that is enough, in your personal opinion? Do you 
think that is the right peg, 76 brigade combat teams?
    General Casey. Senator, I think the question is, enough for 
what? It is not enough to continue what we are doing in Iraq 
and Afghanistan right now at the level that we are doing it at.
    As we get down to the 15 brigade combat teams in Iraq that 
General Petraeus announced last year, I believe that is a 
sustainable level for some period of time. If you look at 76 
brigade combat teams and you look at a one increment out, three 
increments back for the active component and one increment out, 
five increments back for the Reserve, that allows us to 
generate about 15 brigade combat teams in a sustainable 
fashion.
    And we have said all along that those deployment ratios are 
sustainable for us. So I do believe that 76 brigade combat 
teams will allow us to meet what I think is a pretty acceptable 
level of effort.
    Now, at a lesser deployment ratio you can surge for a short 
period of time and get more than that. And that is what we are 
working toward.
    But if I might, the last thing I would say is lots of 
discussion about when we get to 547,000, is that going to be 
big enough. And I think that is a question for discussion. But 
I am leery of building a bigger Army that is not resourced to 
be the quality of this one. And I came into hollow, and I don't 
want to go out to hollow. And that is something that we need to 
have a conversation on nationally, I believe.
    Mr. Hunter. Okay. If you recall the discussions that 
General Schoomaker used to have with us on what he called the 
rain barrel, and it was particularly with respect to the Guard 
and Reserve. And he would draw a picture of a barrel, and he 
would put the spigot about a third of the way up.
    And he would point out--he would say that like that barrel, 
there were folks in, particularly the Guard and Reserve, who 
would deploy in this high-deployment era all the time. And yet 
there were skilled mixes that never deployed.
    And part of his efforts were to be directed toward trying 
to rebalance that skill mix to ensure that you had more people 
from that non-deployable part of the rain barrel, in fact, 
deploying. Now, against that backdrop, you also have the 
problem that I see that this is an unusual war that we fought 
in Iraq, a rare war in which you have massive resources 
dedicated to occupation, which is something we don't do a lot 
of.
    And that there are capabilities in the Army, especially in 
artillery and heavy armor that didn't deploy as much and were 
not as heavily utilized in this occupation-driven situation. 
One worry I have had is going out of balance the wrong way. 
That is shaping an Army that will lend itself well to 
occupations, which, in fact, is the situation with respect to 
the present war, but which might not be in a future war in 
which you need the heavy stuff.
    And I haven't looked at the units of artillery and armor 
that have been stood down, but my question is a general 
question and for the general and for our good friend, Secretary 
Geren. Do you think we are at the right balance? Are we 
achieving the right balance? Or have we taken down too much in 
terms of heavy capability in the U.S. Army? What do you think?
    Secretary Geren. Our goal is full spectrum readiness. And 
right now we are not able to claim that. Every unit that we 
send to theater is prepared for counterinsurgency warfare. They 
are organized, trained, and equipped for that mission. And they 
don't go unless they are.
    But we are not able to properly organize, train, and equip 
for the rest of the spectrum of operations. And we aren't where 
we need to be right now. And some of it is a question of 
organizing. But part of it is just a question of dwell time, 
having the soldiers home long enough where they can do the coin 
mission, but also stay fully qualified in their MOS.
    Now, we have moved soldiers, folks out of artillery and 
taught them to be military police (M.P.s) and have reorganized 
across all three components to meet this demand and try to give 
more soldiers the opportunity to deploy. But our goal is full 
spectrum readiness, both in the training and in the equipping 
and to be organized to offer that for our nation.
    Mr. Hunter. Yes, General, what do you think?
    General Casey. Just to reinforce what the Secretary said, I 
mean, we talked offense, defense, and stability operations. We 
have to be able to do all those across the spectrum from major 
conventional operations to peacetime engagement.
    I mentioned in my opening statement that we were 60 percent 
through the rebalancing of about 120,000 people from Cold War 
skills to more relevant skills. That is exactly what you are 
talking about here. So we are in the process of doing that.
    Some of the skills that we are moving--there is about 
30,000 artillery and air defense. That gets back to some of the 
Chairman's issues here on roles and missions because I am quite 
comfortable relying on the United States Air Force to provide 
additional fire power and air defense support to us on the 
modern battlefield.
    And so, that joint interdependence is a key part of our 
capability to fight conventional wars. The last thing is the 
future combat system is a full spectrum combat system.
    Mr. Hunter. Good advertisement. Thank you, General.
    General Casey. We will----
    Mr. Hunter. Thank you, General.
    And, Mr. Secretary, thank you. And again, thanks for your 
service to our country. I think we have got a great team 
working what is really a very, very difficult balancing act 
here over the next couple of years. So appreciate your 
testimony today.
    Secretary Geren. Thank you very much.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Hunter.
    Now, Mr. Ortiz.
    Mr. Ortiz. Thank you so much for joining us today. And we 
certainly appreciate your service to our country. You know, I 
am concerned. Now, to meet the current demands, the Army has 
significantly drawn from prepositioned stocks around the world. 
And as we know, these stocks are an integral part of the Army's 
ability to rapidly deploy and equip troops around the world for 
combat operations.
    Decreased repositioned stocks and the declining readiness 
of non-deployment forces has significantly increased the 
strategic risk to the United States. This concerns me on many 
levels. I am afraid the Army may not be able to respond to 
another contingency at home or abroad.
    How does the fiscal year 2009 budget request support the 
Army's long-range replenishment of prepositioned stocks and 
reset of the force? Another question that bothers me now is why 
has the date to replenish prepositioned stocks slipped from 
2013 to 2015.
    And the statement you made, Chief, was that we don't want 
to grow the Army without being able to give the forces what 
they need. And this is the problem that we had in the past 
where they didn't have the training equipment to train before 
they went to Iraq. So maybe you can touch on my concerns about 
the prepositioned stock and how this long-range budget will fix 
some of these problems that we are very concerned with.
    Secretary Geren. Real quickly--and both of us will answer. 
But our prepositioned stock costs--we estimate it is around $9 
billion. We have in the supplemental in 2007 we put a little 
over $2 billion in the reset for the prepositioned stocks. And 
you are right. We have moved it from 2013 to 2015. And it is 
just a question of competing priorities.
    We are directing more of the resources to the immediate 
needs of the deploying forces and accepting some risk in the 
prepositioned stocks by moving it back 2 years. In a classified 
setting we would like to discuss with you the plan that we 
have. We feel that we are refilling them in a way that does 
minimize the risk associated with the length of time that it 
will take to refill them.
    But it is about a $9 billion bill, and we do plan to have 
it done by 2015. Much of it is coming out of the supplementals 
rather than out of the base budget.
    General Casey. Congressman, in the 2009 budget on 
prepositioned and reset, I think as the Secretary mentioned, 
most of the money for reset and prepo will be in the war on 
terror supplementals because there are things that have been 
consumed in the war effort.
    The issue of strategic risk--what I have said is we are 
stretched by the current pace of deployments and we couldn't 
react as quickly as we had liked. But as I have also said, this 
is a hugely competent and combat-seasoned force. And we could 
change directions in an emergency if we had to. It would just 
take us longer.
    Over time, we will gradually rebuild that capability so 
that we can both meet the current demands and have strategic 
flexibility to do other things. But that is going to take us 
another couple of years.
    Mr. Ortiz. Is one of the reasons why you have to expand the 
timeframe from, what was it, 2011 to 2015--is it because you 
are working with a budget-driven budget that you don't have the 
money to buy the equipment that is necessary? Or is it because 
it takes time to build the equipment to----
    Secretary Geren. It is a little bit of both. And the third 
element is we want to get the equipment into the units that 
need it as quickly as we can. So it is a combination of those 
three things.
    Mr. Ortiz. And this is my concern. Chief, you and I have 
talked about this. And we hope that we can do enough to help 
you, you know. And sometimes I wonder whether we are doing 
enough by utilizing the depots. I know that at one time we made 
sure that they had surge room to expand so that they could work 
on some of the equipment at reset. Are we looking at the 
facilities where we might be able to be able to reset and rush 
this equipment so that they can be used by our military?
    General Casey. Mr. Secretary might want to add something to 
this. But, I mean, I visited some of the depots. I visited 
particularly Red River relatively recently. And while they are 
not at operating 24 hours a day, 7 days a week, they are 
operating at a very increased capacity and operating very 
efficiently.
    Secretary Geren. And when we have all the equipment coming 
back from the surge, we are going to see the demand on the 
depots is going to go up significantly this year.
    Mr. Ortiz. [OFF MIKE]
    The Chairman. Mr. McHugh, please.
    Mr. McHugh. [OFF MIKE]
    The Chairman. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. I had a couple of 
questions on widely differing topics. The first one was I had a 
chance to go on a Congressional Delegation (CODEL) that was led 
by the gentlelady from California, the Tauscher district. And 
it was very interesting and informative.
    One of the stops we made was to South Korea. And I met a 
gentle and retiring soul by the name of General Bell. And he 
had a few thoughts about the importance of South Korea and the 
strategic importance of our presence there.
    One of the points he made was that the facilities there 
were very, very temporary, that we had a lot of families there, 
women that are pregnant, and there is no doctor. They have got 
to go a long way or a long trip to try to get to either Seoul 
or to get an OBGYN or something if they are pregnant. He was 
making the case that we needed to invest in a little bit more 
permanent sense in South Korea for many strategic reasons. What 
was your thinking on that? And is that included in your budget?
    Secretary Geren. I can't speak to the----
    Mr. Akin. Do you know what I am talking about, generally 
the concept of, you know, one, we look at it, the Korean War 
isn't quite done yet and when we finish, it will leave? The 
other concept is the idea of partnering with different nations. 
South Korea has been a very good partner. And maintaining that 
partnership may be very much in our strategic interest in terms 
of the overall Asian picture.
    Secretary Geren. Well, as you noted, General Bell is not 
shy about expressing his opinions. And he has been a very 
strong advocate for very assertive efforts in Korea to meet the 
needs of families, not only on the medical level, but housing 
and other issues. And I would have to get back to you for the 
record on the details of what we have in the budget for Korea.
    But it obviously remains a high priority. The housing issue 
over there is one that we have spent a great deal of time 
working over the last six to eight months to try to address 
those issues. And General Bell has been back several times and 
met with us as we have tried to work through those issues. 
Because I can assure you that his concerns have been well-
considered. And I would just have to get back with you as far 
as the specifics of what is in the budget on that front.
    [The information referred to was not available at the time 
of printing.]
    Mr. Akin. Thank you very much. Because he seemed to make a 
very compelling case from a strategic point of view totally 
aside from missile defense and the other things we were talking 
about.
    The second question was what I am thinking----
    General Casey. I am sorry. If I could just add, I think he 
is executing a multi-billion dollar move to get us out of Seoul 
and below the Han River down to Camp Humphreys. And the Koreans 
are paying, I want to say, $8 billion of that money.
    Mr. Akin. I think the Koreans are putting a lot of skin in 
the----
    General Casey. They really are.
    Mr. Akin. Yes.
    General Casey. And that will greatly improve the quality of 
life for our soldiers and families.
    Mr. Akin. Super. The second I had was what I am thinking of 
as the new Army, the network-equipped Army. You know, I sort of 
get tired of future combat systems and all.
    The Secretary of Defense seemed to say I am wondering 
whether we can continue to afford that. I guess my sense was it 
is the main modernization program. And the thing that I have 
been encouraged by is that the money that we put in it before 
is really boring money. It is writing millions of lines of code 
and all this stuff that seems very esoteric.
    Now this year we have gotten to the point we are actually 
going to have hardware that you can drive around and test, the 
soldiers can work with it. I just was encouraged to hear that 
you are open-minded to keeping that development side of what 
the Army is doing in making it the new Army.
    So I certainly hope that we don't short-change that in 
terms of trying to meet all these other priorities. But I know 
there is huge tension. If you would like to comment further.
    Secretary Geren. Future combat systems--and as you noted, 
it is not the future really. It is the present. We have got 
technologies that are spinning out into the force today to help 
soldiers on the field. And many of the requests we get from 
theater for capabilities that ride into what future combat 
systems offers today and the spin-outs and certainly going to 
offer in the future.
    As the chief emphasized in his earlier answer, the future 
combat systems is about full spectrum readiness for our Army. 
And it is our number one modernization priority.
    Mr. Akin. It is encouraging to hear you continue to support 
that.
    General.
    General Casey. And I would just add we have both spoken 
personally to the Secretary of Defense about his comments. And 
he supports the future combat system program.
    Mr. Akin. Okay. I have got a few questions from the press. 
I just wanted to make sure we are still all on the same page.
    Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Secretary and General.
    Mr. Secretary, I hope we will be hearing from you in the 
near future that you are going to favorably respond to making 
wounded warriors available for all the military academies for 
instructors and coaches. I also want to ask two quick questions 
for the record.
    Since we train as we fight, what is your target date for 
having IED jammers available for stateside training for every 
soldier before they deploy to Iraq, Guard and Reserve? What is 
your target date for having mine resistant ambush protected 
vehicles (MRAPs) available for stateside training for every 
soldier, Guardsmen, and reservist before they deploy overseas? 
I would ask that for the record. And I will yield the remainder 
of my time to Mr. Murphy of Pennsylvania.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. You are yielding your time to----
    Mr. Taylor. I have asked my questions for the record.
    The Chairman. All right.
    Mr. Taylor. I will certainly stick around. I yield the 
remainder to Mr. Murphy.
    The Chairman. All right. Thank you.
    Mr. Murphy. Gentlemen. Mr. Secretary and General, thank you 
for your continued service to our country. As you know, we 
appreciate it.
    General Casey, you have always been a straight shooter to 
us, and we appreciate your candor. I am trying to read the 
teeniest little bit from your comments about when you say that 
the Army is out of balance and the fact that, you know, you 
said you wrestled hard to find the right words and that our 
Army is not hollow and it is not broken. And it is an Army I 
was part of for many years, and I am proud about my service and 
the armed forces. They are doing a great job.
    And, Secretary Geren, you know, when your comments today, 
the fact that you said we are going to be stressed until the 
demand in the theater decreases and also that our Army is 
forced into these 12 and 15-month deployments and how through 
all time it is critical.
    Gentlemen, my question is how could we get to where we need 
with our armed forces and especially our military if we are 
still bogged down refereeing a religious civil war in Iraq? And 
at the same time, when we talk about Al Qaeda and Osama bin 
Laden, who was responsible for killing 3,000 innocent Americans 
on 9/11 6 and-a-half years ago and we are begging, begging NATO 
for more troops, how could we accommodate that? How could we 
really find and put our Army back in the right balance when we 
are still--the majority of our forces, an overwhelming majority 
of our deployed forces are in Iraq?
    General Casey. Congressman, that is a great question. And I 
think it is an opportune time for me to address what I see 
happening here in the summer and in the spring. I think you 
know General Petraeus is returning in April to give his 
assessment of where to go beyond the 15 brigades he is already 
moving to draw down to in Iraq.
    Mr. Murphy. Can I just ask? But what happens if he comes 
back and says we need a pause and not draw down?
    General Casey. I understand. I think the important thing is 
first that he is on the way to 15 brigade combat teams in Iraq. 
And everything I have heard is he intends to get there.
    If that happens, and I have every reason to expect that it 
will, then we will have the opportunity to reduce the 
deployments from 15 months to 12 months. And everything that we 
hear back from our soldiers and families tells us 15 months is 
too long. And we know that.
    If he has to sustain 15 brigade combat teams for another 
period of time, a brief pause, as you say, that will not impact 
our ability to come off of 15 months. So the most important 
thing for us right now is to return to 12-month deployments. 
And our goal is to do that after we see what General Petraeus 
says here in April.
    Our second goal then--and this is progressive--is to get 
back to increasing the amount of time that the soldiers spend 
at home, one, so that they can recover from the multiple 
deployments; and two, as it has been said, so they can begin 
training for other things. With just one year at home, they 
have to focus all their efforts on counterinsurgency training. 
When they get to about 18 months at home, they can begin 
training for full spectrum operations.
    And so, you will see over time, over the next 3 or 4 years, 
assuming that a man stays at about 15 active brigades, the time 
they spend at home is going to gradually increase until by the 
end of 2011 we should be at about a 1 year out, 2 years back 
level.
    Mr. Murphy. And as a quick follow up, because we are 
begging for about 7,000 more troops in Afghanistan from our 
NATO allies to go after the people who hurt Americans, if we 
don't have that dwell time, which we don't have right now, 
should we mandate from the Congress some type of amendment 
where if you deploy for 12 months, you are home for 12 months 
or deploy for 15 months, you are home for 15 months or if you 
are a Marine, 7 and 7?
    General Casey. Congressman, as you just heard me say, it is 
our absolute goal, not only to get back to one to one, but to 
go beyond it. And I would just tell you that any additional 
requirements on us just makes our job of managing the force 
that much more complicated. And I would ask you that you not do 
that.
    Mr. Murphy. Thank you.
    The Chairman. I thank the gentleman.
    Let me reiterate an announcement earlier. I intend to call 
on members in reverse order on the day of the U.S. Pacific 
Command (PACOM) hearing, which will be the 12th of next month. 
We are now experiencing three votes right now. And these are 
supposed to be the last votes of the day. We will continue for 
a few moments, and then we will adjourn briefly while we get 
those three votes. And we will return for the Secretary and 
General Casey.
    Mr. Forbes of Virginia.
    Mr. Forbes. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary and General, for being here 
and for your tremendous service to our country. Words do 
matter, and we hear a lot of the words that talk about balance, 
words that talk about broken.
    Different people spin them in different directions. But I 
know that we have had testimony before this committee as 
recently as the last several weeks that kind of bring it down 
to a picture so average Americans can at least understand the 
state of where our Army is now.
    And one of our witnesses phrased it this way. And I am just 
asking you if she was correct. But she said that she had just 
gotten back from Iraq and having spent time with the forces 
there and that in her assessment our force today was the most 
``experienced, adaptive, professional, capable force that we 
had ever fielded.'' Do you concur with that assessment that she 
rendered in this hearing room a few weeks ago?
    Secretary Geren. I certainly concur. But General Casey has 
60 years of experience, almost 60 years as a member of the 
United States Army, either as a soldier or as a family member. 
And I think he can really put it in a historical perspective 
for us.
    Mr. Forbes. General.
    General Casey. In my 37 years in active duty I have never 
seen a better force. And those words are exactly how I would 
characterize it.
    Mr. Forbes. And, General, we obviously know the experienced 
part of it. But I just want to focus on the words the adaptive, 
professional, and capable. You would also concur that the force 
that we have now, the Army that we have today--it would be 
accurate to say it is the most adaptive, professional, and 
capable Army that we have ever fielded. Is that not accurate?
    General Casey. That I have seen in 37 years. And I think I 
would say you are accurate.
    Mr. Forbes. Okay.
    General Casey. Let me just, if I could. I was up in Alaska 
talking to a group of sergeants and specialists last week. And 
they asked me, you know, was I concerned about our ability to 
change and do something else. And so, I turned the question 
around and I asked them.
    I said how long do you think it would take you if your unit 
was told today to get ready for major combat operations. And 
they kind of looked at each other and said a couple of weeks. 
And that is the kind of force that it is.
    Mr. Forbes. I think that is important that we need to know 
because this is a force--and we went through, and I asked her 
the specific questions I just asked you. And then I said then 
that means more adaptive, more professional, more capable than 
last year, than the year before that, than the year before 
that, than the year before that.
    And we moved back to 2000 and then 1999 and every single 
answer was the same one, yes, it is more adaptive, more 
professional, more capable than ever before in history. And if 
it is the most adaptive, professional, and capable that we have 
ever fielded, it is the most adaptive, professional, and 
capable the world has ever fielded.
    And I want to shift just a moment and, Mr. Secretary, ask 
you a quick question on base realignment and closure (BRAC) 
because I know that you have faced some delays and shortfalls 
in the execution of funding for BRAC 2005 and the most recent 
of which occurred when we had cuts of about $1.1 billion from 
the level we authorized in our committee in the fiscal year 
2008 omnibus. And my question for you is your perspective on 
what impact in terms of cost and delays, the reductions in 
fiscal year 2008 funds have on your execution of the BRAC 
round.
    And is it going to impact any of our first moved projects 
if that funding hasn't come through? And then when do you need 
the remaining fiscal year 2008 funding we have discussed to be 
comfortable that you can complete BRAC by September of 2011?
    Secretary Geren. At the present time, we are still capable 
of meeting the legal requirements, September of 2011. But the 
over $1 billion was not appropriated last year for all the 
military. Our piece of that was about $560 million, $570 
million, by our estimate. And if we don't get that money soon, 
it is going to be a real problem for us.
    Since BRAC 2005 we have been able to manage all of the 
delays and some of the changes in scope. But this latest delay 
of this $560 million is posing a real problem for us. It is a 
very synchronized effort or needs to be synchronized with the 
military construction, the BRAC construction, moving families 
around. It is just an extraordinarily complex effort. And over 
300,000 people will end up having moved at the end of all this.
    And this latest delay causes us great concern. You all 
authorized the level that we needed, but it was not 
appropriated. And we need this $560 million soon. We do. It is 
causing a problem.
    Mr. Forbes. Good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much. We will ask Mr. Reyes to 
make his inquiry, and then after that, we will break for the 
three votes. And we will return promptly after the three votes.
    Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Secretary and General, welcome and thank you for being 
here. And I also want to thank you for coming to Fort Bliss and 
taking time to thank our troops. In fact, just yesterday we had 
a community parade for the 401 Cavalry that just returned from 
Iraq to thank them.
    Secretary Geren. Great.
    Mr. Reyes. It was a very emotional start to the parade to 
have 31 horses, riderless horses to commemorate the 31 that 
they lost on their deployment.
    But before I ask the question, I wanted to first say that I 
am very concerned and disappointed that the Army is proposing a 
cut to the Terminal High Altitude Area Defense (THAAD) system. 
I know I have discussed it with you previously because field 
commanders are telling us this is a capability that they need 
and they need now. I am concerned because we shouldn't be 
cutting back on a system that is so important and vital in the 
threats that they face today. We are working to restore that 
funding in Congress, but I just wanted to again express my 
concern.
    On the plus side, I am glad that the Army has reversed 
course on the land warrior program for striker combat vehicles. 
And I hope the Army will give the same second look to other 
combat weapons programs like the attack ums program. You know, 
some of these programs have been eliminated solely to balance 
the books. And I know the Army is stressed and looking for 
funds. But these are weapons that are being used in Iraq and 
Afghanistan. And I don't think we can afford to cut them.
    What I did want to ask you in particular, General Casey--
since you and I were out with the troops last week looking at 
the future combat systems, and I know there are a number of 
questions on the capabilities, number one; number two, what is 
ready to be rolled out and be deployed, particularly in places 
like Iraq and Afghanistan, I wanted to get your perspective of 
your visit to Fort Bliss and actually talking to the combat 
veterans as you and I listened to them as they demonstrated 
some of the capabilities of the future combat systems. And I 
wanted to get your perspective on the record of what you think 
are the most important aspects of the future combat systems 
that can be transferred today to the efforts in Iraq and 
Afghanistan.
    General Casey. Thank you very much, Congressman. You know, 
as I told some of the soldiers there, the thing that I was most 
impressed with was the effect of putting this new equipment in 
the hands of soldiers, as you say, combat veterans. And so, we 
are getting a very good look at it.
    And I had the opportunity as a colonel to test the M-1A2 
tank. And we did the same thing. About a year early we put the 
system in the hands of soldiers. And it was a better system as 
a result of that.
    And I think what we are going to see is these elements of 
the future combat system--this is just the first increment--but 
will be better and will get them into the field faster as a 
result of putting them in the hands of these soldiers. Now, you 
know what was out there. But beyond that small, unmanned aerial 
vehicle--that is already in Iraq. And I think that is something 
that will be very, very useful to get into Iraq.
    The unattended ground censors are already in Iraq. And that 
is also a good thing. The robot that we saw going into that 
building is also already in Iraq. And as the more we test, the 
more the soldiers use them, the more we learn and the better 
the next generations will be. And so, those are, I think, the 
three main things that I think are pretty close to being ready.
    Mr. Reyes. The only other comment that I will make is that 
as we continue on the road with future combat systems, I hope 
that we also focus on force protection equipment for soldiers 
because we know that the enemy is very adaptive. And as 
technology changes and they adapt to it, one of the things that 
has been brought to my attention has been the armored vests.
    We want to be careful not to sole source that because that 
prevents competition. And that is a concern that was raised to 
me.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. We will break now for 
the three votes. When we return, I have Mr. Miller and Dr. 
Snyder up.
    [Recess.]
    The Chairman. Our hearing will resume. The three votes 
interrupted the hearing. And some of our members will be 
returning shortly. So we will proceed and call on the gentleman 
from North Carolina, Mr. Hayes, to continue the questioning of 
our witnesses, Secretary Geren and General Casey.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    General Casey, there is a memo--I think you have a copy of 
it--that clearly outlines the relationship between the Army and 
the Air Force on joint cargo aircraft. The Air Force has had 
some memory loss here lately. Would you re-outline for the 
public the understanding that we do have the aircraft and that 
is the right thing to do?
    General Casey. I will, Senator. And, Chairman, we sent a 
copy of this to you, I think, yesterday. I don't know if you 
have seen it yet. But General Moseley and I have both signed 
this letter. And the first sentence is the U.S. Air Force and 
the U.S. Army----
    The Chairman. Just a minute. Just a minute. We have a 
provision in last year's bill for roles and missions. That is 
where this ought to be. That is where this discussion ought to 
take place. We would love to have it here, but that was one of 
the purposes of our having a roles and missions review within 
the Pentagon. That is where this ought to be, General. And 
please proceed.
    General Casey. I agree. I will just read that first 
sentence. The U.S. Air Force and the U.S. Army stand together 
in support of the joint cargo aircraft.
    General Moseley and I have met twice already on roles and 
missions, once with just myself, General Moseley, his Air 
Combat Command Commander, and my Training and Doctrine Command 
Commander. We spent about four hours down at Fort Monroe 
talking about these kind of issues about unmanned aerial 
vehicle issues, the kinds of things I think you would expect us 
to be getting into.
    We then had the first Army and Air Force staff talks in 
five years where we put the Army staff and the Air Force staff 
together, again hitting this same issue.
    The Chairman. Excuse me for interrupting you. But what you 
and the Air Force wanted us to do in last year's bill was to do 
roles and missions within this Congress. And I don't think we 
should be doing it. You should be doing it. I applaud you on 
your efforts. But don't forget the Marines and the Navy when 
you have your discussions. Go ahead.
    General Casey. And I couldn't agree more. And we actually 
already had the first Marine Corps staff talks in four years. 
And we are on tap for the Navy.
    But exactly your point. This is stuff that we should be 
working. And my only point to you is that we are working it. We 
are in full support of the joint cargo aircraft. It is 
something both of us feel is necessary. And we just need to get 
on with the program.
    Mr. Hayes. The agreement has already been made. Let us get 
on with it.
    Secretary Geren, thank you both for being here. Impact 
aid--vitally important going forward with BRAC. And please keep 
that on your radar screen, particularly at the epicenter of the 
universe, Fort Bragg and wherever else it is relevant. Again, 
thank you.
    Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And, Secretary Geren and General Casey, thank you very much 
for your extraordinary service.
    I wanted to just thank you again for the focus, I think, in 
your initial remarks on family. We need to do that. I don't 
think we are there yet, quite frankly, and we hear repeatedly 
the needs of childcare, a focus on that and certainly family 
services, particularly health care, major, major issues for the 
men and women who are serving.
    And that is going to make a difference, we know, in terms 
of retention. I just wanted to say that we need to keep working 
on that, I think, in a very concerted way.
    But I wanted to follow up briefly on supplemental funding 
for recruiting. We touched on that in the personnel hearing 
this week. The Army has already planned an additional $938 
million in emergency supplemental funding during fiscal year 
2008 to support the active duty recruiting program. And that is 
about a 70 percent increase in the amount budgeted for 
recruiting during fiscal year 2008.
    It seems that of all the programs that could be defended as 
war-related, why would the Army select recruiting programs to 
be funded from supplementals? It seems certainly short-sighted 
because of the planning needed to execute that in a reasonable 
fashion. Why not pick another account, additional equipment or 
supplies that would be a better option for supplemental 
funding? Why do we focus on recruiting?
    I know in the hearing they mentioned perhaps by 2010 we 
will be bringing recruiting out of the supplemental into the 
base budget. And it was suggested that we were deferring that 
to the next administration. Why can't we move that in earlier? 
Isn't that a high priority?
    Secretary Geren. Well, it is a high priority. And we have 
seen the cost of recruiting go up a great deal over the last 
several years. And the argument for putting it in the 
supplemental or at least the increased costs--we have never had 
to sustain an all-volunteer force with volunteer recruits 
through a long war as we have now.
    Many of the changes you can attribute to the war. But we 
have seen the propensity to enlist has gone down significantly. 
The influencers, parents, teachers, coaches--their propensity 
to encourage a young person to enlist has gone down as well. 
And the costs of recruiting in the midst of this war are higher 
than they would be were it not for the war.
    But recruiting will be one of several issues that are 
obviously enduring that we are going to have to work and start 
working them back into the base budget. I do think, though, 
that there is a surplus there that you could attribute to 
sustaining a successful recruiting effort in the middle of this 
war. And the polling suggests that we do have a bigger 
challenge in the middle of this war than we do at other times.
    Mrs. Davis of California. I don't think anybody would 
question the challenge. I think our concern is that it is an 
ongoing concern, not likely to change. We have a greater end 
strength, so certainly, recruitment is going to have to go up 
under any circumstances. And I think we would just like to say 
once again that we would like to see that more realistically 
and in some ways, more honestly put into the base budget 
because it better reflects where we are today.
    If I could just go on and mention one other area. And I was 
actually very pleased to see in the field manual the focus that 
would elevate mobility and civil support operations.
    And I think that we have been talking about interagency 
coordination, how critical it is for men and women who serve 
our country to be prepared in that way, but that it is not just 
a military function, that we need to pick up that effort across 
other jurisdictions. And that reflects that. But I am also 
wondering whether you believe that your budget reflects the 
needs that we have in that regard.
    Another question really is whether we are planning to 
capture the skills and the experience of the men and women who 
have served in those civil support capacities. Are we going to 
be able to retain them. Can we use them as instructors? Can 
they teach others? How are we going to do this?
    Because it is great to say that, but if we are not planning 
for that future, I am afraid that we are going to lose really 
the capabilities that have been established and well that we 
have had to learn, you know, in a really tough way for how we 
are going to win future wars and future conflicts.
    General Casey. And I think as has been said earlier, this 
is a combat-seasoned, experienced force. And you are absolutely 
right. One of the things that makes it the magnificent Army 
that it is are non-commissioned officers and our captains and 
our majors who have had the experience in these environments.
    And we are working very hard as they come back from these 
experiences to put them into schools, recruiting command, those 
other places where they can begin sharing that experience with 
others. And as we talked about the recruiting and retention 
initiatives, it is critical to keep those folks with us. And I 
think you know that we have just done some things with 
captains' bonuses.
    Mrs. Davis of California. Are you confident that the budget 
reflects that, that it shows that priority that we have to do 
that? Are you going to be able to do what is really required to 
bring them into those areas?
    General Casey. I believe between the base budget, which has 
about, I believe, about $2.5 billion for recruiting and 
retention is in it. So, I mean, they are not all, by any 
stretch of the imagination, in the supplemental. It is actually 
the first priority for us to work.
    The other thing I would tell you--you mentioned the manual, 
but it mentions families in here, I think which is also a 
first.
    Mrs. Davis of California. Great. Thank you very much.
    General Casey. Thank you.
    The Chairman. Thank the gentlelady.
    Mr. Franks, to be followed by Dr. Snyder.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And once again, thank all of you here for being here. 
General Casey and Secretary Geren, I know that you folks have 
given so much of your life to this cause of human freedom. And 
it is because of you that people like me get to sit back here 
and ask questions. And I appreciate it.
    I heard General Casey on a number of occasions. And 
ironically today I think both from you--certainly, from you, 
Secretary Geren, that you want to avoid any appearance of a 
hollow force or certainly, any reality of a hollow force. And I 
couldn't agree with you more.
    Oftentimes, our opponents study our system that is so 
transparent, you know, we can sometimes be victims of our own 
openness. And they study our system, and if they get the sense 
that our force is not what it can be, I think that that is a 
potential weakness that is provocative.
    And with that said, I want to echo the sentiments of the 
ranking member related to the 4 percent of GDP for defense 
spending. I think if our opponents across the world knew that 
this was a commitment on the part of the American people that 
they would take that into their calculus and that it would be 
something that would actually, not only stabilize the military, 
but perhaps stabilize the geopolitical dynamics in the world to 
a degree and give you guys a chance to plan.
    And when this war is over, as I hope and pray it will be, 
that the people don't come and say, well, now is the time to 
cut the force. At that point, you may be needing to do resets. 
And it is important, I believe, for you to have a foundational 
something that you can count on to plan and to build this 
military into, again, all that it can and should be.
    I don't want to be a commentator here. Let me just ask you 
specifically. You indicated in your written statement, General 
Casey, that the future combat systems are the core of your 
modernization effort. And looking down the road, future combat 
system spin-outs will require communications on the move 
capability for brigade combat teams.
    And this com on the move capability is a feature of the Air 
Force's planned transformational satellite communications 
constellation. And as I am sure you know, in fiscal year 2007, 
transformational satellite (TSAT) experienced major 
congressional funding cuts that deferred its planned 
deployment. And the fiscal year 2009 budget requests a $4 
billion reduction by the Office of the Secretary of Defense 
from the future year's defense plan.
    And I guess my question is are you going to be forced to 
make unfavorable changes to the future combat systems program 
to defer deployment of spin-outs of TSAT if TSAT continues to 
suffer schedule slips. How is it going to affect you? Is it 
going to make you change your program?
    General Casey. Right now I don't see the slips impacting 
us. However, the future combat system is not just reliant on 
that one system. We have terrestrial systems, unmanned 
repeaters, and helicopter repeaters as well as the satellite 
part of it. So we are not wholly reliant on that.
    And we are very carefully monitoring the risk associated 
with all of the communications architecture, particularly 
jitters and Warfighter Information Network-Tactical (WIN-T) 
because, as you suggest, those are very important to our 
ability to establish this network to support the soldiers.
    Mr. Franks. I am sure the Air Force has some ability to 
supplant or at least complement any holes there might be 
because of a slow-down in the TSATs. Are you set up to work for 
the Air Force in that regard if that comes to a necessity?
    General Casey. Absolutely. In fact, as I mentioned to the 
chairman, General Moseley and I have already had several 
sessions talking about the full range of Army and Air Force 
interaction and initiatives. And so, there is good cooperation 
between both services right now on the whole range of issues.
    Mr. Franks. Well, let me just throw one last quick one at 
both of you here. My time is about gone. But if there was one 
thing that you could ask this committee to do that we are not 
already doing, that is not already in the process, one priority 
that you feel is important that we are missing somehow, what 
would that be? And I will direct that to the Secretary first 
and then perhaps General Casey can take it up.
    Secretary Geren. Well, we are here to ask you to support 
this budget obviously. But just in line with what you said at 
the beginning of your remarks, I was here, I was in the 
Congress from 1989 to 1997. And it was during a period of time 
where we in some ways, I guess, let hope triumph experience. 
And we saw a major drawdown in our military and significant 
cutbacks in procurement.
    One of the most important things for the military is to 
have a predictable, sustainable level of funding. And rapid 
changes up and down are very hard for an organization like 
this. Programs like the future combat system--those are multi-
decade programs. And as I anticipate the future and look at how 
hard it is to bring new weapon systems on and how many years it 
takes, one of the biggest challenges for the military is to be 
able to accommodate the ebbs and flows of funding.
    And we need to do a better job as a country of having a 
sustainable level of funding for the military through peace 
times and through war times. And I think that will be one of 
our biggest challenges.
    The Chairman. Ditto. Thank the gentleman.
    The gentleman from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here.
    General Casey, I think I will direct my three quick 
questions to you. This whole issue of funding has been all 
through this discussion today. But on page 19 of you all's 
written statement you talk about timely and full funding of the 
Army's fiscal year 2009 request of $140.7 billion will ensure 
the Army is ready to meet the needs of the Nation and continue 
the process of putting us back in balance.
    Then you go on to say, however, it is important to note 
that over the last six years, the Army has received an 
increasing proportion of its funding through supplemental and 
GWOT appropriations. And that is the end of that quote.
    My question is, as Secretary Geren just said, you all are 
here to support the budget. I assume that you would not turn 
money away if, in fact, this committee and this Congress were 
to say instead of $140.7 billion we think that we ought to do a 
higher number. Is that a fair statement?
    General Casey. Congressman, you know, depending what for. I 
mean, if you are talking about moving some things that are in 
the supplemental already into the base program.
    Dr. Snyder. I am talking about increasing the baseline 
budget, which I think is the point of that paragraph there, 
that you--I assume that your preference is that, in fact, that 
your baseline budget number for this coming fiscal year be 
higher than the one in the budget that is being proposed. Is 
that a fair statement?
    General Casey. I don't think there is any question, 
Senator, there are things in the supplemental that have to 
migrate back into our base program if we are to sustain the 
levels of readiness and to put ourselves back in balance.
    Dr. Snyder. Right, right. Then my second question is, 
General Casey, I assume, given that you have given us this list 
of things--and there are certainly a lot of needs out there--
that you will not be opposed and will not refuse congressional 
adds, inserts, earmarks if they are consistent with the things 
that you need.
    General Casey. Congressman----
    Dr. Snyder. I mean, because this is going to be the game 
that is going to be played, you know.
    General Casey. Yes.
    Dr. Snyder. We will add things to this budget because a lot 
of us think it is unsatisfactory and we are going to get beat 
up on it from now until election day because we are the party 
of earmarks. That is what is going to happen.
    General Casey. Yes, yes.
    Dr. Snyder. So I just need you to say will you be 
supportive of those earmarks that are consistent with what you 
think the Army needs.
    General Casey. Congressman, we are here to support this 
budget and ask for your support on the 2008 g-wide GY request 
and on the 2009 GY request that will accompany this.
    The Chairman. Excuse me, General.
    Dr. Snyder. So you don't want any additional----
    The Chairman. Just a minute, Vic.
    Dr. Snyder. Yes.
    The Chairman. You are not answering his question.
    General Casey. Yes, I am----
    The Chairman. Please why don't you restate your question? 
This is really important. This is what we do in Congress.
    Dr. Snyder. If I were to submit a letter to this committee 
taking your unfunded requirements list and--I don't know how 
many things you have on there, 20 or 30--and submit each letter 
saying please add, Mr. Skelton, to this year's budget, these 
following items as requested by General Casey, that is going to 
be labeled as an earmark in the public discussion.
    So my question is are you going to defend those of us who 
will add, who will take the heat for adding earmarks when we 
start getting bashed by the President and others that somehow 
we are the Congress of earmarks? It is a pretty straightforward 
question. Are you going to stand up for those of us who will 
ask for some of these items?
    General Casey. And, Congressman, I certainly--I think we 
all--appreciate the support that this Congress and this 
committee have provided us.
    Dr. Snyder. Well----
    General Casey. And again, we have given our requirements 
through the Department to Congress in the form of the base 
program and the supplementals. And if you are to move things 
around within those programs, you know, there is not much we 
can do about it. We think about these programs long and hard.
    Dr. Snyder. Well, I assume you do. That is why some of us 
will be willing to support things on your unfunded requirements 
list. But the tone right now is that you really don't want us 
to do that this year. That is an unfortunate comment because I 
don't think that is what we really ought to be about.
    General Casey. As I said----
    Dr. Snyder. I wanted to ask----
    General Casey. I am not about declining support, obviously. 
But we have stated our requirements. They are in the program 
request. And how you distribute those monies, I think, is 
something for the committee to decide.
    Dr. Snyder. Let me ask another quick question. As you and 
the Air Force are moving ahead on the joint cargo aircraft, I 
had assumed that because the capacity of this plane for 
carrying cargo was substantially less than a short version of 
the C-130J that there would be a substantial savings. Now, I 
know that we apparently have made the decision to move ahead 
but don't yet know exactly what the cost is going to be.
    If it comes back that that cost is getting awfully close to 
the short version of the J model, are you going to be--you and 
the Air Force going to open up this discussion in terms of 
whether that is the best route to go, given that you can carry 
a lot more with a short version of the J model than you can 
with the joint cargo aircraft, as the post?
    General Casey. I certainly think that both of us will look 
at that if that occurs.
    Dr. Snyder. Yes. Thank you.
    The Chairman. General, I had an earmark last year for a 
brand new chapel at Fort Leonard Wood, Missouri. And I would 
hope that a comparable earmark in the days ahead would be 
supported by the Army because it was much needed. And you folks 
never put it on the list, although it was on the someday list, 
which never came to pass, and so I did it.
    And that is the type of thing of which Dr. Snyder refers. 
We would like and expect support from the Army on these items 
such as that and some, of course, far more training or 
operational-oriented.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, General, Mr. Secretary, thank you very much for being 
here today. I particularly am enjoying looking out and seeing 
the green. I served 31 years in the Guard and Reserve. I am 
very grateful I had three sons who serve in the Army Guard.
    A preliminary question I have--Congressman Forbes has 
already brought this up. But that we have the best military in 
the history of the world. And you verified that. As a parent, 
we also need verification that we have the best-equipped 
military in the world. Is that your opinion?
    Secretary Geren. Certainly.
    General Casey. I fully agree.
    Mr. Wilson. Thank you.
    General Casey. And it is constantly updated with input from 
the theater.
    Mr. Wilson. And I know firsthand. In summer of 2007, our 
brigade went to Fort Irwin for desert warfare training. I would 
say this respectfully that all of the equipment that we had at 
that time is now in a museum. And it has been superceded by 
multiple generations of the best equipment that is conceivable 
and the best technology. And I really have been proud of the 
military.
    I want to thank you, Mr. Secretary, for pointing out about 
visiting with the troops. The highest honor I have had serving 
in Congress is to visit with our troops. I visited in Iraq 
eight times. I have had two sons serve in Iraq.
    I particularly want to thank General Casey. One of my sons 
served under you. And I knew that we just had the best 
personnel there to watch out for our troops and lead our 
troops.
    Additionally, I have been to Afghanistan five times. And I 
want to report that my National Guard unit is there, the 218th 
Brigade, led by General Bob Livingston. They are training the 
Afghan Police and Army. I visited with them three times. Soon I 
will be visiting again.
    And each time I go, the people of South Carolina are so 
proud to have the largest deployment since World War II, 1,600 
troops. And it is because of your leadership and the efforts 
that they are making protecting our country.
    As pleased as I am, I am concerned, though, on the National 
Guard Operation and Maintenance (O&M) budget, $5.88 billion 
that it is actually because of costs and price changes a 
decrease of $19 million. Our state is vitally interested. The 
Guard has been so effective and so helpful in preparing for 
hurricanes and recovery. Is the budget sufficient for our 
Guards to be able to perform their stateside mission?
    Secretary Geren. Budgets are choices. And it is set 
authorities. And a lot of hard choices have to go into 
assembling a budget. But when you look at the resources that we 
have dedicated to the Guard as an Army, we believe that this 
budget represents the right levels of funding.
    You look at the Guard equipping. Over the next 24 months, 
you are going to see $17 billion worth of equipment flow to the 
Guard. We started with a deep hole when it came to the Guard. 
It had been underfunded for a very long time. And over the last 
few years we have made progress in digging out of that hole. 
But we aren't where we want to be.
    On the issues such as hurricanes, the type of domestic 
crises that we certainly have to be able to anticipate in 
addition to the funding that goes directly into the Guard, we 
have got state compacts, as you know, where we try to bring 
the--marshal the resources of the region to meet those needs. 
And anticipating this hurricane season, all the hurricane 
states, as does yours, participate in an effort to identify 
resources. And where there are equipment shortages, the active 
component generates those equipment shortages to try to meet 
those needs.
    But we aren't where we want to be. But we are moving 
further along. And this budget moves us in the right direction. 
And I am pleased that we have been able to make progress in 
better funding all three components to meet all of their needs. 
But it is a work in progress.
    General Casey. I don't have anything to add on the budget. 
But I will just say I visited a Guard brigade down in Camp 
Shelby, Mississippi last week, 39th Brigade Combat Team. And 
the combat seasoning--you can see it in the Guard forces that I 
visited. And when I say the Army is better, the best I have 
seen, it is the whole Army. It is not just the active force. It 
is the guard and reserve as well.
    Mr. Wilson. And thank you indeed. I had training many years 
ago at Camp Shelby. And our 218th was trained at Shelby prior 
to leaving for Afghanistan. And the training is just 
unparalleled. And I just want to assure parents and family 
members that we have the best-equipped troops in the world, the 
availability of equipment, the best technology, extraordinary 
UAV capability. But that is not necessarily the message people 
hear. Thank you very much.
    The Chairman. The gentleman from Pennsylvania, Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    General, you probably know we don't have problems with 
earmarks for chapels in the Navy. We just don't put chapels on 
ships. But if you don't mind, my question, if I could take 
another bite at the apple that Mr. Murphy and the congressman 
have done, I have no question--and when someone said over here, 
the gentleman here said weakness could be provocative. I don't 
think there is any questions in anybody's mind that we have the 
best military in the world, best equipment.
    I think the question we are really asking is but can they 
do what is required. Pacific commander last year before the 
surge began said when asked that there is no Army unit that can 
deploy like our plan 5027 to defend South Korea, no Army unit. 
You even said here in your testimony or it has been reported 
that Army units that go to Iraq receive their equipment just 
before they go, a lot of it.
    So they can't do what is required. And so, the Pacific 
commander says the Navy and the Air Force we are relying upon 
to back them up. And why did we need those divisions in 5027 
all this time if it is no longer required?
    We are short 2,800 troops to what the International 
Security Assistant Force has asked us to train U.S. troops, 
U.S. troops to train in Afghanistan the police and the army 
there, not just what the North Atlantic Treaty Organization 
(NATO) is short, us. So we can't do what is required there.
    Our prepo that we want to rely upon for Korea and other 
places is not there. It is used elsewhere. And the training--we 
don't even train them for Korea or other places anymore.
    So my issue here is not that they are not the best, but can 
they meet the timelines as of four years and five years ago of 
all our op plans.
    General Casey. And the answer, Congressman, as I said in my 
opening statement is we can't do things as rapidly as we know 
we need to do this.
    Mr. Sestak. And that is the question that is being asked. 
The concern with Iraq is when do we make the judgment that our 
overall security is harmed by continuing the present strategy. 
Now we are in another suspension. What if South Korea happens 
and 27,000 troops have no Army backup nor the prepo to go?
    So if I could, that is the real question I think people 
should be asking more. It is not about Iraq security. It is 
about America's security. So my second question is, if I could, 
because I only have five minutes, General. I don't mind if I 
could come back. I have only got five. And sometimes he takes 
an extra minute away from freshmen.
    But my second question is last year we had more Army 
procurement in the emergency supplemental bill than we did in 
the regular bill, the base bill. Would you agree we are doing 
counterinsurgency pretty well in Iraq?
    General Casey. I would.
    Mr. Sestak. And General Curdy says we are the best 
counterinsurgency in the world. I agree we need Future Combat 
Systems (FCS). We are replacing armor to protect our 
individuals with a network and self-protection like the Armored 
Gun System (AGS) to protect our troops.
    But if we are doing counterinsurgency well and that is what 
you are transforming to do more of on the core mission, why do 
we need FCS if we are doing it so well and it is becoming the 
core mission? I understand that we probably would have done the 
Battle of Peach Orchard a lot differently and not been 
surprised by those three Iraqi brigades at the beginning of the 
war if we had it for force on force.
    We are only doing 15 brigade combat teams now or 15 heavy 
ones. What about the other 22 heavy ones? And we are not going 
to have the first 15 for 15 years.
    I don't see anything in your budget to upgrade all those 
other ones for their strikers, their Abrams, et cetera, which 
gets to the communications question over here, jitters for FCS 
for those 15. And all the other technology in FCS will demand 
more band width than is used by the entire ground Army today.
    So my question is what are we doing here. We are changing 
our mission. We are doing it fine with equipment we have.
    I understand FCS is good for heavy brigades, and we are 
only doing 15 out of the 22. We are about to have an Army where 
we have more procurement in the emergency supplemental bill. 
The war should end at some time. Are we expected then to double 
our procurement to only do 15 brigades for FCS? Have we really 
thought this issue through, General?
    General Casey. Well, I don't know exactly where to start 
here, Congressman.
    Mr. Sestak. [OFF MIKE]
    General Casey. Let me go back to----
    Mr. Sestak. I am complexed by these different things.
    General Casey. Yes. Well, let me go back to the 5027 
issues. First of all, there is a 600,000 man South Korean Army 
that is very, very competent. And when you talk to General 
Bell, he will tell you that.
    And they are backed up by a reserve of about the same size. 
And they are also backed up by elements of the United States 
Air Force and the United States Navy, as you mentioned.
    Our prepositioned stocks in Korea are still in place. We 
have not used those.
    Mr. Sestak. I am talking about the Army Prepositioned Stock 
(APS).
    General Casey. That is what I am talking about.
    Mr. Sestak. The float ones.
    General Casey. For Korea.
    Mr. Sestak. The float ones are not the Korean----
    General Casey. And I don't want to get in beyond----
    Mr. Sestak. But would you agree with me that all the 
equipment for Korea is not there in the prepo, wherever it 
comes from?
    General Casey. It is pretty close. It is pretty close for 
that particular mission. And I can talk to you offline here 
about the specifics.
    Mr. Sestak. May I ask one more question? If we are okay 
with those 600,000, once Iraq is over, is there no longer a 
requirement for the Army to deploy there as a backup force?
    General Casey. I mean, that is a discussion that is a 
policy discussion. And whether----
    Mr. Sestak. I mean, if it is okay today----
    General Casey [continuing]. It is suitable for the country 
to have a force on the Asian mainland is something to be 
discussed at the policy level.
    Mr. Sestak. But we don't need anything to deploy to back 
them up if we are okay today?
    General Casey. No, no, that is not the case at all. I mean, 
there are, as you know, in the plans there are other 
requirements to deploy, forces. But they are not nearly as 
significant as they were in the past because of this competent 
South Korean force that is there.
    On your questions about the counterinsurgency and the 
future combat system, this talks about full spectrum 
operations. And we need a capability that can be successful at 
major conventional war as well as counterinsurgency. And future 
combat system allows us better than any other system that we 
have in the Army to meet those requirements.
    And it is indeed a full spectrum system that is as capable 
in major conventional operations as it is in supporting 
counterinsurgency operations. And we don't have all the tools 
of that system in Iraq and Afghanistan now. And the more we get 
them there, the better we will become, even if we are doing 
fairly well now.
    The Chairman. I thank the gentleman.
    Mr. Jones from North Carolina.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, General Casey and Mr. Secretary, it is a pleasure to 
see you both. And you have my utmost respect for the jobs that 
you are doing.
    General Casey, last night driving home--I guess I am 
addicted to Congress and all the hearings--I was listening to 
your presentation on the Senate side. And it brought to mind my 
question. And I am going to make a few comments and then get to 
the question.
    Secretary Geren was talking about the ebb and flow. Well, 
you know, our nation is in deep financial trouble. We are 
borrowing money from China like it is going out of style. They 
say we owe China $440 billion. I verified that with the U.S. 
Treasury recently.
    We have spent probably $600 billion to $700 billion in 
Iraq. That is not your decision. You are following your 
Commander in Chief. And I mean that sincerely, and I respect 
that.
    The cost now is running at about $8 billion to $9 billion a 
month, 4,000 killed, 28,000 to 30,000 wounded, victory after 
victory by the military. Saddam has been deposed and is 
deceased. Iraqis have a government. They had elections. The 
military is giving and won so many victories that we should 
have parade after parade for them, quite frankly.
    Yet we know we are in a situation in Afghanistan that now 
we have got to call on the Marine Corps and the Army to step it 
up. And most of these people have done three, four, and five 
tours, both Army and Marine Corps.
    Because of the statement I heard you, last night, when you 
were saying that, you know, victory in Iraq, I think we have 
already had victory. My question is will you give me your 
definition of victory for Iraq.
    What would you say to the American people that when this 
happens, then we have won, it is over, it is time to draw down 
the military? Would you give me your definition as to what you 
would explain to the American people that when this happens, 
the game is over, we have won?
    General Casey. Yes, I mean, that is more a question for 
General Petraeus than it is for me. He is the one that is going 
to decide what that looks like.
    Mr. Jones. All right. Well, since the cameras are not here 
and the press is not here, General Casey to Congressman Jones 
and nobody is going to quote you, but, General, there has got 
to be your opinion. And again, I am very sincere about this.
    Because you know what? Quite frankly, all the questions you 
have had about the budget and Mr. Geren has spoken to it as 
well, you cannot continue to bleed the country, not you 
personally, not the military. They have done everything they 
can do.
    But we are in such a financial state that Uncle China is 
lending Uncle Sam money to fight the wars. This is not going to 
last very long. So please, if you would, give me an idea of 
what you think I could look for as a taxpayer to feel like we 
have won in Iraq, it is time now to significantly downsize the 
number of American troops, and we have won, we can declare 
victory.
    I think we could have declared victory four years ago, 
quite frankly. But that didn't happen. Please give me your 
opinion.
    General Casey. I will give you my opinion, and it is not 
something you probably haven't heard before. But I believe that 
we are working toward and need to get our presence down to a 
level that is acceptable both to us and to the Iraqis.
    Mr. Jones. Would you tell me what that level is? Sorry.
    General Casey. And to do that, Iraqi Security Forces have 
to develop to the point where they can maintain domestic order 
and deny Iraq as a safe haven for terror. Now, when that will 
be is a subject for the commanders on the ground. And that is 
what we have been working toward, certainly, since I was there 
and I think probably before that.
    Now, when that will be I think is a subject for General 
Petraeus when he returns here in April. But that is what you 
asked my opinion of what success will look like. That is what I 
believe it looks like.
    Mr. Jones. I appreciate that. And I know, again, you are 
following the orders of the Commander in Chief. The problem is 
I knew this four or five years ago, that I would get the true 
answer, which you gave me the true answer. But the problem is 
it is the same thing year after year, year after year. And this 
country cannot continue to wait 10 and 15 years and 100 years 
for the Iraqis to take on this responsibility.
    I had General Zinni to tell me--I respect him as I respect 
you. General Zinni told me that it is time for the Iraqis to 
walk the streets of Baghdad, not the American soldier or the 
American Marine. I hope that it happens sooner rather than 
later because this country is going to be financially broke.
    Thank you.
    General Casey. Thank you, Congressman.
    The Chairman. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Secretary and General, thank you very much for sticking 
around this long. And I regret that so many of our colleagues 
had to do other things.
    If you have had time to think about my previous question as 
to when do you--have you set a target date for trying to get 
improvised explosive device (IED) jammers to stateside training 
so that the troops see them stateside, they train with them 
stateside before they ever go to the theater. Have you set a 
target date?
    And again, I realize we are living hand-to-mouth on 
delivering these devices to the field. Have you set a date when 
you have a target date when the troops will train with MRAPs 
stateside before they get to the theater?
    Secretary Geren, you and I go back a long ways. And so, I 
think it is fair to say for 18 years we have been told by the 
military experts that we train as we fight. These are two key 
ingredients to the fight in Iraq. And yet for most troops, they 
never see them until that equipment shows up in Iraq. So that 
is obviously we are not training as we fight.
    And I think one of the ways that I as a Member of Congress 
who helps come up with the money for these things--one of the 
ways I am going to know that we are there as far as supplying 
these things is when the military has enough of them to train 
stateside with them. If you could answer that for me.
    Secretary Geren. Well, our goal is to train as we fight. 
But with the demands in theater, we are moving----
    Mr. Taylor. I understand.
    Secretary Geren [continuing]. The equipment into theater to 
meet the needs there. And MRAP--as we do our long-term 
planning, and the Army plans for what our needs long-term are 
for MRAP, it includes enough MRAPs so that we can train on 
those MRAPs. It certainly is less than optimal to send our 
soldiers into Iraq and to Afghanistan without having trained on 
the MRAPs here. And they train there for a short period of 
time.
    But it certainly doesn't match what they would get if we 
had the MRAPs here. So I can't give you a firm date because we 
don't know at this point how many MRAPs we think is the right 
number in theater. We are still working on that.
    By the end of the year, we will have 10,000 plus. We are 
just trying to fine tune working with the theater to figure out 
exactly what that number is. But those will be filled first. 
And then we will continue to fill to make sure that we have 
them to train. But that is what we have, a situation, as you 
know, where the----
    Mr. Taylor. Mr. Secretary----
    The Chairman. Just let me interrupt.
    Mr. Taylor. Sure.
    The Chairman. In other words, you are not training as you 
fight.
    Secretary Geren. With a number of different pieces of 
equipment we do not have them in theater, and they train when 
they get to theater. On MRAPs we do not have MRAPs all across 
the training base in the United States.
    General Casey. I do think that is an important point, that 
the training takes place here in the United States, in Kuwait 
as they are coming through, and during the transition period 
that they have in Iraq. Now, as you suggest, we would like to 
have most of the training done here in the United States. And 
as the Secretary said and as you know, we don't have a full 
complement of equipment here in the States.
    Mr. Taylor. General.
    General Casey. To have the opportunity to train, 
Congressman, before they have to use them.
    Mr. Taylor. But if we never set a target date, we never get 
there.
    General Casey. Your point is taken. Your point is taken.
    Mr. Taylor. And that is the point I am trying to make. And 
that target date is going to come better from you, Mr. 
Secretary and you, General, than from me.
    General Casey. Right.
    Mr. Taylor. And we need to set a target date. And we need 
to be able to measure ourselves whether or not we are living up 
to that. I mean, we are now the 5th year into this conflict, 
National Guardsmen and reservists are cycling through Camp 
Shelby, and they are literally walking around with something 
that looks like a cigar box that has got IED jammer written on 
it.
    That is the closest they are going to come to the real 
thing until they get to theater. That is not correct training 
on something that is going to save their lives. We know that 
MRAPs are going to save their lives. And again, I don't mean to 
beat you over head, but I think it is very important that it 
starts with you.
    We have a target date, and then let us try to stick to it. 
And then ask us, the Congress, to come up with the funds to 
make that happen. So I will leave it at that.
    The second thing--and this is a repeat from my question 
yesterday. I posed it to the Air Force. It is going to involve 
your air assets in Iraq and Afghanistan now.
    I just got to that portion of Charlie Wilson's War where in 
the span of five minutes, three hind helicopters were shot down 
by the first introduction of the stingers. And although things 
had been trending well for the Afghans prior to that, that 
obviously was a moment that Russian pilots wished had never 
happened.
    And it was a weapon that they did not expect to see. But 
the Russians had to know it was out there. They just didn't 
expect to see it in Afghanistan.
    Knowing that there are a world of weapons out there, 
knowing that the borders in Iraq and Afghanistan are extremely 
porous and that a lot of the same players that were helping the 
Afghans get weapons against the Soviets might well be helping 
the Afghans and the Iraqis get weapons now, are you confident 
that our nation doesn't experience a similar moment when a 
weapon that we know is out there, somewhere, in the world but 
we don't think is going to make their way to the insurgents in 
Afghanistan or the insurgents in Iraq? Are you confident that 
we are taking every precaution and are in a position to counter 
every possible scenario so that we don't face a moment like 
that as a Nation with our helicopters or in our air assets in 
Iraq or Afghanistan?
    General Casey. Congressman, I am confident that we are 
doing everything in our power to anticipate what the enemy 
might do and how he might do it and what new technologies he 
might bring to bear. And as you suggest, this is a constant 
struggle because war is action, reaction, and counteraction. 
And we work very hard to try to stay ahead of the threat.
    Now, I am comfortable that our systems in theater are well-
protected against the threats that you describe. And whether or 
not something can show up that we didn't anticipate, again, we 
constantly work at trying to anticipate that. But there are no 
guarantees in war.
    Mr. Taylor. What are the trends as far as casualties to 
your air assets? I am sitting, what, 7,000 miles away. I 
can't----
    General Casey. Yes. The trends, I think, are actually quite 
stable. There is a relatively low level of surface-to-air 
attacks. And I am just going back to my own experience, and it 
is not current. But you have some peak periods. But, I mean, 
knock on wood, our aviators do very well. And it is a 
combination, not just of the protective equipment, but the 
tactics and techniques that they use as they move about.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Secretary, I hope you would get back to me with those 
dates as far as setting a target date. And I realize it is a 
target. But as far as where every stateside unit has the 
training to go to Iraq and Afghanistan will be training with 
the actual equipment they are going to be using in theater.
    Secretary Geren. Well, MRAPs as an example, it is going to 
be hard to give a set date because we don't, at this point, 
know how many we believe we need in theater. Our goal, though, 
is once we meet the demand in theater then we will fill into 
the training requirements. But the soldiers that when we send 
MRAPs to theater, we don't immediately send them out with a 
unit.
    They train with those MRAPs before they go out. It is not 
as optimal as if they had them previously, but they do train on 
the MRAPs there before they drive them and actually put them 
into use. So they are fielded, soldiers train with them, and 
then they are employed in the units.
    But we will do our best to come up with goals. But in the 
case of MRAP, we are still developing what the requirement is 
in theater, trying to figure out what the right mix is.
    At one point we thought it was going to be one to one, swap 
out all the up-armored Humvees. But understanding now of the 
situation is that it is going to be a mix, that it will 
continue to be a role for the up-armored Humvees in theater. So 
we will work to come up with timelines. But until we get a firm 
idea on exactly how many we need in theater, it is going to be 
hard to predict when we will be able to fill at home because 
our first priority is getting them into theater.
    Mr. Taylor. Mr. Secretary, I very much appreciate that. But 
I would also tell you that I have already received in my 
capacity a phone call from the commandant of the Marine Corps 
where he says you know what, I may have ordered too many MRAPs. 
And he was seriously considering trying to work with the vendor 
to lower the number that he would acquire.
    I think that gives you an excellent opportunity to buy the 
difference, to make them available for stateside training. 
Again, all I am asking is for a target date.
    Secretary Geren. I appreciate that.
    Mr. Taylor. We all live by target dates.
    Secretary Geren. Yes, thank you. Certainly, we will do 
that.
    Mr. Taylor. Okay. Thank you very much.
    The Chairman. Speaking about target dates and timelines, is 
it not true that the American Army began seriously training the 
Iraqi forces in late 2004?
    General Casey. You know, there was always an effort going 
on. But if you look at when we stood up the multi-national 
security and transition command, I think it was the April, May 
timeframe of 2004.
    The Chairman. Of 2004? So we have had 2005, 2006, 2007, and 
now we are well into 2008. In your personal and professional 
opinion, General, since you were there, could you give us a 
target date as to when the Iraqi forces can be fully trained to 
take over their own security?
    General Casey. You know, when you say fully trained to a 
soldier, that means, you know, almost to the capability of the 
U.S. Army.
    The Chairman. Take it over, take it over, and the United 
States Army can come home.
    General Casey. Yes. I mean, my personal view, Senator, is 
the Iraqis----
    The Chairman. I am not a senator. I was a state senator 
once upon a time.
    General Casey. Pardon me.
    The Chairman. But I am not now. I am a member of the House.
    General Casey. Pardon me. I have been on the other side of 
the Hill here for the last couple of days.
    The Chairman. Okay. But this is more fun, isn't it?
    General Casey. Now, there is a good one. They are going to 
need our help for some period of time.
    The Chairman. Well, we understand that.
    General Casey. But certainly, not at the same level that we 
are.
    The Chairman. But----
    General Casey. I don't find it useful to talk about when 
will they be absolutely fully independent of us.
    The Chairman. Well, you know, it is interesting, though. 
Let me interrupt. Excuse me just a second.
    It is interesting, though. Folks at home say hey, how long 
have we been there, how much longer do we have to be there to 
train up these forces. So we have 2005, 2006, 2007. We are in 
2008, and we started in April, May of 2004. Somewhere along the 
line we ought to say it is your baby.
    General Casey. I mean, I think you know my feelings and 
what I tried to do when I was there to get them to build their 
capability as rapidly as we can.
    The Chairman. I know that. And I compliment you on it.
    General Casey. And I think you will also agree----
    The Chairman. And that is a tough job, tough job.
    General Casey. Yes. I think you will also agree, though, 
that you don't build an army overnight, and you especially 
don't do it while it is fighting every day. You know the old 
joke about the heart surgeon and the motorcycle mechanic and 
they are arguing whose job is harder? And the heart surgeon 
says I do mine with the motor running. I mean, that is what 
they are doing.
    You are building an army from scratch while the motor is 
running, while they are fighting counterinsurgency operations 
every day. Leaders are getting killed, having to be re-stood 
up. I mean, it is a difficult proposition. I think they are 
doing a magnificent job. And I couldn't begin to give you a--to 
answer your first question.
    The Chairman. I had an excellent discussion with Lieutenant 
General Caldwell not long ago regarding what is now FM3-0. And 
you had a copy of it on the desk there a few moments ago. Could 
you tell our committee in just as few words as possible what 
this new field manual purports to do, please?
    General Casey. Yes, Congressman. It begins to move us as an 
Army to deal with full spectrum operations. And we believe 
offense, defense, and stability operations simultaneously 
applied are what we are going to need in the 21st century to be 
successful.
    The Chairman. Thank you. Timelines--I have in front of me 
the timelines for fiscal year 2009, 2010, 2014, 2015 regarding 
the future combat systems. Let me direct your attention--and I 
hope your good staff behind you would take some good notes on 
this.
    For fiscal year 2009--there are five items--number one, 
five early prototypes of non-line of sight cannon vehicles; 
number two, prototype unattended ground censors; number three, 
prototype non-line of sight missile launcher; number four, 
prototype FCS vehicle computers for M-1, M-2, and Humvees; and 
number five, prototypes of small UAV and small robot. And I 
hope someone on your staff got all five of those. I can repeat 
them if you want me to.
    General Casey. No. I have got them and am very familiar 
with them.
    The Chairman. Okay. The fiscal year is one-half through at 
the end of March. Am I correct? The fiscal year 2009 is over, 
the half of it is----
    Secretary Geren. 2008.
    The Chairman. 2008----
    Secretary Geren. Right.
    The Chairman [continuing]. Is over. So fiscal year 2009 
will be--the mid-year will be March of next year. Am I correct?
    General Casey. I thought you were trying to trick me, 
Congressman.
    The Chairman. No. There is no way to trick you, General. 
Can you give us on that day the status of each of those five 
items that were mentioned as of that day, mid-2009 fiscal year? 
That is a way off, but I would put it into the back of your 
mind so you might do that. And I would certainly appreciate 
that for the committee next year would be very, very helpful 
for us next year.
    General Casey. If I might, I guess you are asking how far 
along will those five systems be.
    The Chairman. That is correct.
    General Casey. Okay.
    The Chairman. See, they are all supposed to be done by the 
end of 2009, according to what I have in front of me.
    General Casey. Yes.
    The Chairman. And I ask that half-way point of 2009 would 
you tell us where each of those five items are as toward their 
finishing date, allegedly, at the end of 2009.
    General Casey. We will do that. And just so you know, all 
five of those systems are out at Fort Bliss in the hands of 
soldiers right now.
    The Chairman. I understand. But we look forward to it.
    A couple more items, General. You were good enough in your 
opening statement to speak about a very courageous sergeant I 
know you and all Americans are very proud of the sergeant who 
was awarded the Army's distinguished service cross.
    And all would agree from your description that his actions 
went above and beyond the call to duty. Not only did he save 
lives of his fellow soldiers at great personal risk, but he 
went back to the burning striker with the ammo and explosives 
to man a 50-caliber machine gun to save his fellow soldiers and 
take the fight to the enemy.
    This is pretty parallel to what Audie Murphy, the most 
decorated soldier in World War II, did to receive the medal of 
honor. And there have been no soldiers, no one to receive the 
medal of honor in any conflicts that are ongoing, whether it be 
Iraq or Afghanistan. And I wonder if the bar has been moved as 
to what it takes for someone to receive a medal of honor.
    None have been awarded since Vietnam. And from your 
description, this fits the Audie Murphy actions to a T where he 
went back to man the machine gun. And Audi Murphy did the same 
thing to a burning tank. And I think the only difference was he 
was manning a 30-caliber machine gun. And he received the medal 
of honor. Is there some reason that no one such as this 
sergeant has received that high honor?
    General Casey. Congressman, there have been two medals of 
honor awarded in this current conflict.
    The Chairman. Both of them were posthumous. Am I correct?
    General Casey. That is correct. One great sergeant first 
class, Sergeant Paul Ray Smith, Army and a Marine whose name I 
do not know. But both are posthumous.
    The Chairman. Is that a criteria that they be----
    General Casey. No, it is not.
    The Chairman. Well, is there some reason why others have 
not been awarded to those that have survived?
    General Casey. I cannot think of a specific reason. There 
certainly is no bar that has--or the bar has not been elevated. 
There is a process that is a very meticulous process to 
determine the level of these awards. But there is no bar to--
the bar hasn't been raised.
    The Chairman. Well, you should know that other Members of 
the Congress have asked me that question. And I can't answer 
it. So I pass it on to you for your consideration.
    Last September our committee held a hearing on the Army's 
contracting problems in Iraq and Kuwait and Afghanistan. And 
the Army, to your credit, uncovered more than $15 million in 
bribes. The Department of Defense Inspector General continues 
to review $6 billion in contracts for potential fraud.
    And since our hearing we have received the report of the 
Gansler Commission, which you established, Mr. Secretary, in a 
call for wholesale organizational changes in the way the Army 
performs its contracting duties. What are your current plans to 
implement that commission's recommendations?
    Secretary Geren. Thank you, Mr. Chairman. We have already 
implemented many of the recommendations. In fact, we didn't 
really wait until the Gansler Commission was finished in its 
work.
    Last summer we stood up a contracting task force under 
General Ross Thompson and Kathy Condon. And they began work 
immediately. And they worked hand in glove with Gansler. So as 
we moved along, we could incorporate some of the lessons that 
we learned from Dr. Gansler into our decision-making so we 
could implement as quickly as we could.
    As recommended by Gansler, we have set up a two-star Army 
contracting command. We have already set it up. He calls for 
obviously a uniformed military person to hold that position, 
two-star. Unfortunately, we don't have the bench in the 
contracting field in the Army to fill that at the present time. 
We have an Senior Executive Service (SES) equivalent of two-
star.
    We have also set up, according to his recommendation, a 
one-star expeditionary contracting command and an installation 
contracting command, one-star. And we have established seven 
brigade contracting teams.
    Where we found ourself with over the last several years--I 
would say maybe the last decade, a little bit plus--we saw our 
personnel in contracting really atrid and wasn't replaced, both 
in civilian and in military. And one of the most important 
things that we are going to do and it is something that we have 
underway, it is something strongly endorsed by Gansler, is we 
have got to rebuild that bench.
    We have got to develop civilians. We have got to develop 
soldiers that have those skills. And you don't do it overnight.
    But we have now built positions so that these soldiers can 
look up and see I have got a place to grow into, there is room 
to be promoted. We have put instructions in promotion boards to 
make sure that they recognize and acknowledge those contracting 
roles.
    We have a contracting task force, which I have asked the 
undersecretary to chair. And he has got a two-star that is 
supporting him to continue to push forward with the Gansler 
recommendations. We have changed a great deal. We have already 
added about 400 personnel to contracting, as recommended by 
Gansler. We have got another 700 that we are seeking approval 
to transfer into contracting.
    But just big picture--the future of the Army requires 
expertise in contracting. Over the last couple of decades we 
did not cultivate that expertise. And we saw contracting needs 
ramp up. We saw the number of contracts, the dollar volume of 
contracts ramp up. And we did not develop contracting 
professionals to meet that demand.
    So it is going to be a multi-year process. It is going to 
be a decade-long process. But we have begun. We have built the 
structure that he called for. And now it is going to be a 
question of attracting young people into that field, civilians 
and military, growing them into those 05s and 06s, growing them 
into general officers and filling these billets that right now 
we are filling with civilians with the uniformed contracting 
officers.
    He did an outstanding job for us. He gave us a blueprint, 
and we are embracing it completely. There are very few things 
in his report that we have not embraced. And we are moving out 
on them.
    The Chairman. Probably one of the worst days of your life 
was when you came over and gave us an early briefing on that 
situation. And thank you for it, not just your candor then, but 
your attention to it now.
    Secretary Geren. Yes, sir.
    The Chairman. You are doing the right thing. We compliment 
you----
    Mr. Courtney [continuing]. Testified before our committee 
regarding the status of the joint cargo aircraft program. He 
indicated that there has been discussions between the two of 
you regarding the memorandum of agreement, which Connecticut 
and many other Air National Guard are watching very closely. 
And I just wonder if you could give your perspective in terms 
of, you know, whether the existing memorandum is still the rule 
of the road and that these Air Guard units are still going to 
see the joint cargo aircraft arriving on schedule.
    General Casey. The memorandum was dated yesterday. Both of 
us signed it. And the first line says that the United States 
Air Force and Army stand together in support of the joint cargo 
aircraft. So we are committed to it, and we are both moving 
out.
    The Chairman. I suppose this is pursuant to the roles and 
missions requirement in our bill last year. Am I correct?
    General Casey. Absolutely.
    The Chairman. Good. Well, carry on. That is good. Now all 
you have to do is get the Navy and Marine Corps to sign that 
memorandum, and you are home free.
    Well, gentlemen, thank you so very, very much for appearing 
before us today. You are blessed in so many ways. You are the 
Secretary and the military head of the finest Army in the 
world. The sons and daughters of Americans all across our 
country are in your keeping.
    And we appreciate your sincerity, your knowledge, your hard 
work, most of all, your vision. Our job is to make an inquiry. 
Our job under the Constitution is to maintain and provide so 
that you can carry out your duties under our Constitution.
    So continue to do well. Know that you are appreciated. I 
like to make reference often to the great Roman Orator, Cicero, 
who said that gratitude is the greatest of all virtues. So with 
that, we will close this hearing with knowing that you have the 
gratitude of this committee and that those in uniform have the 
gratitude of our Nation. Thank you. That is it.
    Secretary Geren. Thank you, Mr. Chairman.
    General Casey. Thank you.
    [Whereupon, at 1:11 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 28, 2008

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 28, 2008

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 44097.001
    
    [GRAPHIC] [TIFF OMITTED] 44097.002
    
    [GRAPHIC] [TIFF OMITTED] 44097.003
    
    [GRAPHIC] [TIFF OMITTED] 44097.004
    
    [GRAPHIC] [TIFF OMITTED] 44097.005
    
    [GRAPHIC] [TIFF OMITTED] 44097.006
    
    [GRAPHIC] [TIFF OMITTED] 44097.007
    
    [GRAPHIC] [TIFF OMITTED] 44097.008
    
    [GRAPHIC] [TIFF OMITTED] 44097.009
    
    [GRAPHIC] [TIFF OMITTED] 44097.010
    
    [GRAPHIC] [TIFF OMITTED] 44097.011
    
    [GRAPHIC] [TIFF OMITTED] 44097.012
    
    [GRAPHIC] [TIFF OMITTED] 44097.013
    
    [GRAPHIC] [TIFF OMITTED] 44097.014
    
    [GRAPHIC] [TIFF OMITTED] 44097.015
    
    [GRAPHIC] [TIFF OMITTED] 44097.016
    
    [GRAPHIC] [TIFF OMITTED] 44097.017
    
    [GRAPHIC] [TIFF OMITTED] 44097.018
    
    [GRAPHIC] [TIFF OMITTED] 44097.019
    
    [GRAPHIC] [TIFF OMITTED] 44097.020
    
    [GRAPHIC] [TIFF OMITTED] 44097.021
    
    [GRAPHIC] [TIFF OMITTED] 44097.022
    
    [GRAPHIC] [TIFF OMITTED] 44097.023
    
    [GRAPHIC] [TIFF OMITTED] 44097.024
    
    [GRAPHIC] [TIFF OMITTED] 44097.025
    



=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 28, 2008

=======================================================================


                 QUESTION SUBMITTED BY MR. ABERCROMBIE

    Mr. Abercrombie. In December 2007 the M4 carbine had the poorest 
performance during an extreme dust test that replicated the desert 
environments of Iraq and Afghanistan. Reports of the test state that 
the M4 malfunctioned seven times more than the leading rifle tested. In 
light of the M4s poor performance during recent testing, what plans 
does the Army have to address the deficiencies of the M4 and is it 
planning to procure a follow-on weapon with a stronger performance 
record?
    Secretary Geren and General Casey. The weapons were tested in a lab 
environment and pushed beyond their technical limits to ensure that the 
M4 remains one of the most capable weapons in all environments. All 
weapons in the test performed well: stoppages in all carbines were 
roughly 1.4 percent or less of the total rounds fired by each, meaning 
that all weapons had more than a 98% reliability rate under the test's 
extreme and minimal maintenance conditions. The M4 is the most tested 
(in the laboratory and battlefield) individual weapon employed by our 
forces today. Our Soldiers and combat leaders are resolute in their 
support of the M4 and the job it is doing for our Soldiers in combat. 
In some aspects, the M4 performed better than the other weapons, for 
example it has less round dispersion (greater accuracy) and fewer 
ruptured cartridges (better safety).
    Nevertheless, the Army is analyzing the results of the extreme dust 
tests for potential improvements to the M4. There have been 68 
substantive engineering changes since fielding the weapon. Recently, 
the Army improved the magazines on the M4 and M16 and will begin 
fielding the weapons with improved magazines to Soldiers in Iraq and 
Afghanistan this summer. We also have an ongoing engineering study to 
determine if the extractor mechanism can be improved.
    Our combat developers have completed a capabilities based 
assessment (CBA) of small arms and identified those capability gaps 
that must be addressed through materiel solutions. However, the CBA did 
not support the need for a new carbine/rifle individual weapon.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HAYES
    Mr. Hayes. Is there a valid requirement within the Army for the 
Joint Cargo Aircraft (JCA)? Is this a critical requirement? It is very 
important for this Committee to hear from you what a high priority JCA 
is for the Army and our soldiers.
    Secretary Geren and General Casey. The JCA is a critical 
requirement for the Army and our Soldiers. JCA enables he Army to meet 
its inherent core logistics functions of transporting Army time-
sensitive mission-critical (TSMC) cargo and personnel to forward 
deployed units, often in remote and austere locations. Because the 
critical nature of this cargo contributes to the success of the 
tactical ground commander's mission and the usually less than 24 hours 
notice of its need, lift assets must be in a direct support 
relationship to provide the necessary responsiveness.
    To meet this requirement, the Army maintains a worldwide 
operational support airlift capability of aging C-23 aircraft for the 
Combatant Commanders. For sustainment operations, Army fixed wing 
aviation performs those missions which lie between the strategic and 
intratheater missions performed by the USAF and the tactical maneuver 
and movement performed by Army rotary wing or ground assets. Once cargo 
has reached the Army distribution system, it becomes an Army 
responsibility to distribute supplies from the logistical hub to the 
foxhole--the last tactical mile.
    The JCA is procured to meet this requirement while transforming 
Army Aviation, specifically the Army National Guard and the Army 
Reserve fixed wing fleets, to a more modern, capable force. Without 
transformation of the Army's legacy fixed wing fleet, the Army will 
continue to pour funding into antiquated aircraft that provide limited 
value on the battlefield and fly the CH-47 helicopters on costly re-
supply missions, thus limiting the flexibility of the Joint force 
ground component commander.
    The JCA is an Army led, Joint program between the Army and the Air 
Force. As an example of joint teaming between the Services, JCA roles, 
missions, and concept of operations were validated by the Joint 
Capabilities Integration Development System (JCIDS) process, approved 
by the Joint Requirements Oversight Council (JROC), managed by a Joint 
Program Office (JPO), and produced a Memorandum of Agreement, cosigned 
by the Vice Chiefs of Staff of the Army and the Air Force.
    For the Department of Defense, JCA offers greater efficiency by 
utilizing a single platform to meet both the Air Force and the Army 
missions and improves effectiveness in managing the gray area where 
operational and tactical missions overlap. Effectiveness for the 
services results from each service having a joint platform that meets 
its unique individual mission requirements better than current 
alternatives do.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER
    Mr. Miller. You have said in the past that the Army is ``out of 
balance.'' I am particularly concerned about the Reserve Components. We 
continue to involuntarily call up men and women from the Individual 
Ready Reserve (IRR). Some of these men and women have not had formal 
military training in years and they are being placed in direct combat 
after a short period of refresher training. What is the current status 
of involuntary IRR activations? How much longer do you expect to 
continue involuntary IRR activations?
    Secretary Geren and General Casey. Most of those called up 
involuntarily from the IRR are junior enlisted and officer Soldiers who 
have been out of the regular Army less than three years and in many 
cases have been previously deployed. Since 9/11, over 12,000 IRR 
Soldiers have been involuntarily mobilized, of which approximately 
6,000 are serving on active duty today.
    All IRR Soldiers report to a mobilization station (Fort Jackson, 
South Carolina or Fort Benning, Georgia) and undergo a medical 
screening and complete Soldier Readiness Processing (SRP) before 
commencing training activities. Soldiers receive up to two weeks of 
training (basic rifle marksmanship, first aid, urban operations and 
convoy operations) at the mobilization station and then receive three 
to four weeks of skills refresher training prior to joining their 
assigned unit. Soldiers normally join their unit prior to deploying to 
theater and receive an additional three to four weeks of collective 
training.
    The Army provides Soliders based on requests for forces from the 
combatant commanders. The Army will continue to utilize IRR Soldiers to 
fill GWOT manning shortages within the active component, Army National 
Guard, and the Army Reserve until directed to do otherwise.
    Mr. Miller. I am told that an alarming number of those called 
involuntarily out of the Individual Ready Reserve do not report for 
duty. As I have been advised, in a recent wave of involuntary IRR call 
ups, 160 letters were sent out and only 61 reported for duty. What 
actions does the Army take when IRR members do not report for duty upon 
being involuntarily recalled?
    General Casey. The two most common reasons a Soldier fails to 
mobilize are orders being delivered to incorrect addresses or a 
mobilizing Soldier requests a delay or exemption (D&E). Over half of 
the IRR Soldiers involuntarily recalled request a D&E for various 
hardship reasons. Soldiers are authorized to submit D&E requests up 
until the day they are required to report which escalates the number of 
no shows at the mobilization station. More than half of the D&E 
requests are approved.
    The U.S. Army Human Resource Command's Mobilization Accountability 
Assurance Team (MAAT) is responsible for locating IRR Soldiers who fail 
to report as ordered, whether voluntarily or involuntarily to the 
mobilization station. The MAAT can spend up to two years resolving such 
cases. Once determined, Soldiers who intentionally refused to report 
are processed for administrative separation and discharged. Soldiers 
are notified of their pending separation/discharge and have 30-days to 
respond or submit an appeal. In most cases these Soldiers do not 
respond and the separation action is complete within four to seven 
months.
    Mr. Miller. I am concerned about that the Army is losing many of 
its best and brightest junior officers. Other than bonus money, 
graduate school, and posting preference what other incentives have you 
thought about to retain top junior officers in our Army?
    Secretary Geren and General Casey. The average United States 
Military Academy (USMA) graduate loss rate for year groups 1991-2002 is 
29% at 60 months of service (5 years), and 41% at 66 months of service 
(5.5 years). Attrition rates for year groups 2000-2002 are 
approximately 5% higher than the average at 60 months and 2% higher 
than at 66 months of service. Overall, there is no statistical 
significance in the loss rate differences from USMA year groups 1991-
2002.
    The increased loss rates, regardless of statistical significance, 
are still of concern to the Army. We have, therefore, begun a thorough 
review of officer accession and retention policies, and are assessing 
the overall health of the officer corps. We have instituted two 
initiatives to boost officer retention. First, we provide the highest-
performing cadet officers from West Point and our ROTC scholarship 
programs the opportunity to select either their branch of choice, 
initial post of choice, or a fully-funded graduate degree program. This 
incentive has garnered over 9,000 additional man-years of obligated 
service among year groups 2006 and 2007 officers. We expect this 
incentive will raise the number of high-performance officers electing 
to serve eight years by more than a third. Second, our unprecedented 
captain retention program offers a number of incentives, including 
graduate school or a cash bonus, to encourage our best and brightest 
officers to remain on active duty. Analysis of the results of our first 
several months of this program indicate a slight reduction in the loss 
rates of captains in the 2000 and 2001 year groups graduating from West 
Point.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. BOYDA
    Mrs. Boyda. Have there been any integration problems with ``In Lieu 
of'' personnel embedding with Army units?
    Secretary Geren and General Casey. In Lieu Of personnel (ILO) 
include personnel from other Services and Army personnel who have been 
trained to perform missions/tasks outside of their core competency/
military occupational speciality. The Army integrates ILO personnel 
into units as early in the pre-deployment process as possible. 
Coordination for the integration of ILO personnel to Secretary of 
Defense-approved missions begins in the sourcing process and continues 
through training and subsequent mission preparation phases leading to 
deployment. The Army coordinates all necessary ``In Lieu of'' training 
with the Joint Staff and other services. Key players include the Joint 
Staff, Joint Forces Command, Central Command, the Services, the Office 
of the Secretary of Defense, and, as appropriate, Forces Command and 
1st Army. There have been no systemic integration problems with ``In 
Lieu Of'' personnel embedding with Army units.
    Mrs. Boyda. How much longer will ``In Lieu Of'' personnel from 
other services be required to augment Army personnel?
    Secretary Geren and General Casey. Today's global demands for 
forces require the Army and other Services to augment each other's 
capabilities in order to fulfill Combatant Commander requirements. The 
length of this augmentation is dependent on the current and future 
requirements from Combatant Commanders in support of the global war on 
terror. As requirements change, the Army, in coordination with Joint 
Staff and the other Services, will reassess the need for capability 
augmentation.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. While patrolling crowded and noisy urban settings in 
Iraq, U.S. troops have a difficult time identifying where enemy fire is 
coming from. Hostile fire has claimed the lives of more than 1,200 
American soldiers in Iraq since combat began there in March of 2003. 
Indeed, it is my understanding hostile fire has become the second 
leading cause of American fatalities after IEDs. Mr. Secretary and 
General Casey, could you please discuss the Army's intentions for 
funding sniper detection and protection systems? Does the Army's budget 
include additional funding for sniper defeat systems? What is the 
status of the $1.2 billion of sniper defeat technology and systems 
contained within the September 2007 supplemental? What is the long term 
strategy regarding sniper defeat technology? I would appreciate any 
detailed budgetary information.
    Secretary Geren and General Casey. The Army received $400 million 
in other procurement, Army funding for Rapid Equipping Soldier support 
systems in the FY08 bridge supplemental. The funds were allocated to 
procuring counter sniper items. The funding is less than the total FY08 
counter sniper requirement of $451 million, which is a reduction from 
the original request of $1.2 billion and was based on a continuing 
refinement of the counter sniper requirements by the Army staff Counter 
sniper systems being procured with current funding include:

      <bullet> Boomerang gunshot detection system

      <bullet> DoubleShot shot detection system

      <bullet>  Vanguard (which integrates a remote weapons station 
with Boomerang and DoubleShot for vehicle based Counter Sniper 
capability)

      <bullet>  handheld thermals, stabilized and ruggedized 
binoculars, security veils and vehicle nets, magnifiers and mannequins.

    The remaining portion of the FY08 supplemental request includes the 
requirement for counter sniper procurement. The Army approved the 
transition of two sniper defeat capabilities into acquisition programs: 
vehicle/fixed site-based gunshot detection and Soldier-based gunshot 
detection. The third capability, a remote weapons station with a 
vehicle based gunshot detection system (similar to Vanguard) has been 
assessed to support an acquisition program decision. Funding requests 
have been incorporated into the Army's FY10-15 Program Objective 
Memorandum submission. If approved, a requirement for the Vanguard-like 
system would be submitted and expected to be a program of record in 
FY12.

                                  <all>

</pre></body></html>
